<html>
<title> - COUNTERING THE CHANGING THREAT OF INTERNATIONAL TERRORISM: REPORT OF THE NATIONAL COMMISSION ON TERRORISM</title>
<body><pre>[Senate Hearing 106-867]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-867

                   COUNTERING THE CHANGING THREAT OF
                   INTERNATIONAL TERRORISM: REPORT OF
                  THE NATIONAL COMMISSION ON TERRORISM

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 15, 2000

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
68-118                     WASHINGTON : 2001



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
ROD GRAMS, Minnesota                 JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                RUSSELL D. FEINGOLD, Wisconsin
CRAIG THOMAS, Wyoming                PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              BARBARA BOXER, California
BILL FRIST, Tennessee                ROBERT G. TORRICELLI, New Jersey
LINCOLN D. CHAFEE, Rhode Island
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, prepared 
  statement......................................................    13
Bremer, Hon. L. Paul, III, Chairman, National Commission on 
  Terrorism, Washington, DC; accompanied by: Juliette Kayyem, Dr. 
  Richard Betts, former Congresswoman Jane Harmon, and Gardner 
  Pekham.........................................................     2
    Prepared statement...........................................     5
Dodd, Hon. Christopher J., U.S. Senator from Connecticut, 
  prepared statement.............................................    18
Helms, Hon. Jesse, U.S. Senator from North Carolina, submissions 
  for the record:
    Chart entitled ``Anti-U.S. Terrorist Acts in Greece: 1975-
      2000 (1st qtr.)''..........................................    51
    Chart entitled ``Greek Terrorist/Anarchist Attacks on 
      European Targets: 1990-2000 (1st qtr.)''...................    53
    Article by Oliver North entitled ``Tackling Terrorism''......    55
Reynolds, James S., Chief, Terrorism and Violent Crime Section, 
  Criminal Division, Department of Justice, Washington, DC.......    37
    Prepared statement...........................................    38
Sheehan, Hon. Michael A., Coordinator for Counterterrorism, 
  Department of State, Washington, DC............................    27
    Prepared statement...........................................    29
Sonnenberg, Maurice, Vice Chairman, National Commission on 
  Terrorism, Washington, DC......................................     8
Watson, Dale L., Assistant Director, Counterterrorism, Federal 
  Bureau of Investigation, Washington, DC........................    34
    Prepared statement...........................................    36

                                 (iii)

  

 
 COUNTERING THE CHANGING THREAT OF INTERNATIONAL TERRORISM: REPORT OF 
                  THE NATIONAL COMMISSION ON TERRORISM

                              ----------                              


                        THURSDAY, JUNE 15, 2000

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.

    The committee met, pursuant to notice, at 11:25 a.m., in 
room SD-419, Dirksen Senate Office Building, the Hon. Jesse 
Helms (chairman of the committee) presiding.
    Present: Senators Helms, Sarbanes, Dodd, and Torricelli.
    The Chairman. The meeting will come to order, and the 
Chair, first of all, apologizes for the delay. It was not of 
the Chair's making.
    We had to make a judgment in light of the fact that a vote 
was scheduled for 11 o'clock on the floor of the Senate. And I 
had to make a judgment as to whether to try to start and then 
stop. Now, we will continue on through.
    This morning, the Foreign Relations Committee will hear 
from the Chairman and Vice Chairman of the National Commission 
on Terrorism, which issued a bipartisan report \1\ last week 
that should serve as a wake-up call to the unrelenting threat 
of international terrorism.
---------------------------------------------------------------------------
    \1\ The report of the National Commission on Terrorism entitled 
``Countering the Changing Threat of International Terrorism'' can be 
accessed through the U.S. Government Printing Office Website at: 
www.gpo.gov
---------------------------------------------------------------------------
    Now, whether intended or not, this bipartisan Commission 
also paints a troubling picture of a Clinton administration 
that is pulling its punches in the fight against terrorism.
    The Commission exposes a pattern in the administration of 
appeasing terrorist states and coddling governments that are 
AWOL in the fight against terrorism.
    In the interest of time, I will cite only one or two of the 
most egregious examples. For example, in March 2000, the 
Clinton administration set aside the evidence and its own pre-
conditions to reward--I reiterate--reward Iran with lucrative 
trade concessions.
    Now, this appeasement sends a dangerous signal that, when 
it is politically expedient, the United States of America will 
abandon its principles and let terrorist states off the hook. 
So let me put it simply: If it is OK for Iran to murder 
American soldiers, what on Earth is not OK?
    Now, the case of Greece, an important NATO ally, is even 
more worrisome. The Greek Government has done absolutely 
nothing to target terrorists who have murdered innocent 
Americans time and time again.
    Now, we have some charts \2\ which show in graphic detail 
more than 100 terrorists attacks that have been carried out 
against United States citizens in Greece and only one--only one 
has been solved.
---------------------------------------------------------------------------
    \2\ The charts referred to by the Chairman begin on page 51.
---------------------------------------------------------------------------
    Now, we look forward to hearing your case, gentlemen, and 
we appreciate your coming, and we appreciate your patience in 
waiting for the Senate to operate over in the Capitol.
    The committee will then hear from a panel of administration 
witnesses regarding your recommendations.
    Now, the first witness we have is the Honorable Paul 
Bremer, III--you have a father and grandfather named the same 
thing, don't you?
    Mr. Bremer. And a son.
    The Chairman. All right. This gentleman is Chairman of the 
National Commission on Terrorism; and Mr. Maurice Sonnenberg, 
who is Vice Chairman.
    And, gentlemen, we will begin with Mr. Bremer and proceed 
at will.

   STATEMENT OF HON. L. PAUL BREMER III, CHAIRMAN, NATIONAL 
   COMMISSION ON TERRORISM, WASHINGTON, DC; ACCOMPANIED BY: 
 JULIETTE KAYYEM, DR. RICHARD BETTS, FORMER CONGRESSWOMAN JANE 
                   HARMON, AND GARDNER PEKHAM

    Mr. Bremer. Thank you, Mr. Chairman, for the opportunity to 
appear before you. I have a full statement, which I would like 
to enter in the record, if I could.
    The Chairman. That is customary. That will be done.
    Mr. Bremer. I will just briefly summarize it, if I may, Mr. 
Chairman.
    The Chairman. Thank you, sir.
    Mr. Bremer. One of the main conclusions which you have 
already referred to, is that the threat of international 
terrorism, we think, is on the rise, and is changing in its 
character.
    The motives of terrorists seems to be changing, and we have 
to be concerned about the possibility that terrorist groups 
will resort to, what we call, catastrophic terrorism acts, 
which are designed to kill not hundreds, but perhaps tens of 
thousands of Americans.
    In other words, we are facing a serious question, and the 
Commission took its role seriously, our job being basically to 
try to find ways to help save American lives. That is what is 
at the bottom of all of our recommendations.
    Mr. Chairman, in the area of intelligence we found that it 
is a vital aspect of the fight against terrorism and some 
things need to be done.
    We feel that there are restrictions, which are addressed 
more fully in the report, against the collection of terrorist 
information by the CIA abroad and by the FBI at home. We have 
recommended that some of those restrictions be eased.
    We think it is also important that that information be 
shared better, and we have made specific recommendations in 
particular for the collection of intelligence that the FBI 
comes across, getting that out to the intelligence community 
and decisionmakers in a timely and useful fashion.
    I should add, finally, in the area of intelligence we think 
that there--the intelligence agencies, particularly CIA, FBI 
and most especially NSA need more money. They need more 
resources to fight this fight. And we have made specific 
recommendations, which I draw your committee's attention to, 
which we have also talked to the Senate Intelligence Committee 
about.
    Mr. Chairman, there are several aspects of our report which 
have been misrepresented in the last week or so, and I would 
like to cover two of those, just to be sure the record is 
clear.
    First of all, some people have reported that we have 
suggested a new program to monitor foreign students in the 
United States, with the implication that we are picking on a 
particular ethnic or religious group.
    Let me be clear about this: For more than 35 years, the 
United States has had a program in place whereby colleges and 
universities in the United States are required to keep the 
Immigration Service informed about all foreign students, 
irrespective of their nationality, that are studying at those 
institutions. In other words, such a program has been in place 
for 35 years.
    In 1996, Congress having found that a student who had 
overstayed his visa was involved in the World Trade Center 
attack which killed six Americans in 1993, Congress decided 
that the information was not flowing properly from universities 
to the Immigration Service, and instructed the Attorney General 
to, in effect, computerize that program.
    The INS has done that in the last couple of years and all 
the Commission has suggested is that that program, as is 
recommended by the Immigration Service, should be made 
nationwide now, collecting the same data that has been 
collected on foreign students for 35 years without respect to 
what nationality they are.
    The second area where there has been some confusion is our 
recommendation about an appropriate role for the military in 
the event of a catastrophic attack.
    We think, Mr. Chairman, that it is important to think about 
the unthinkable, to think about the possibility that either a 
single catastrophic attack, or several, or attacks taking place 
on American soil, while we are in hostilities abroad, that such 
an attack or series could go beyond the capability of local, 
state and Federal officials to deal with; and that the 
President should have available to him contingency plans to use 
the civilian leadership of the Department of Defense to respond 
to such an attack. That is what we have recommended, that 
contingency planning should be done.
    And, Mr. Chairman, sometimes people have criticized this as 
a potential infringement on civil liberties. We take exactly 
the contrary view.
    Our view is that in the event of a catastrophic event such 
as we are talking about, where you have tens of thousands of 
people dead, the pressures will be very great on the President 
and the leadership of this country to impinge on civil 
liberties unless they have done some contingency planning and 
thought it through ahead of time, and so we strongly recommend 
that such contingency planning be undertaken, be exercised, and 
that those plans be put on the shelf, hopefully to remain there 
forever.
    But we think it is the height of irresponsibility not to at 
least think about the possibility of that happening.
    Now, Mr. Chairman, I know of interest to you--this 
committee--in light of your comments, you are concerned about 
states which support terrorism. We address this in the report.
    It is true that two of those countries that support 
terrorism are right now, Iran and Syria, undergoing some kind 
of change domestically. We do not know exactly what.
    In the case of Iran, it is true that Americans may hope 
that President Khatemi will institute sensible political and 
economic reforms that can bring Iran back into the world of 
nations.
    But the regrettable fact is that Iran continues to be the 
world's leading supporter of terrorism. In fact, in the period 
since President Khatemi's election, Iranian support for 
terrorism, particularly for terrorist groups opposed to peace 
in the Middle East, has actually increased.
    As you note, there is also evidence that Iran may have been 
behind the attack on Khobar Towers in Saudi Arabia, which 
killed 19 American soldiers.
    Our Commission felt that there was a danger, that the 
administration might be giving signals to Iran and perhaps to 
our allies that our concern about Iranian terrorism is 
weakening. And so we recommended no further concessions to the 
Government of Iran until it stops support for terrorism.
    Mr. Chairman, it is too early to know if President Asad's 
death will bring any change in that country's support for 
terrorism. In American conversations with the new leaders of 
Syria, it is certainly our hope that we will make clear that 
Syria cannot expect normal relations with the outside world 
until it takes concrete, measurable steps to stop the support 
for terrorism.
    Hopefully, the new leader of that country will come to 
understand that such a step is the prerequisite to obtaining 
Western trade and investment essential to modernizing the 
Syrian economy. As with Iran, we believe American policy should 
take its cue from Missouri: ``show me.''
    Mr. Chairman, in the case of other countries which support 
terrorism, there are also potential changes. North Korea comes 
to mind. We have all seen the events that took place in 
Pyongyang yesterday.
    But here again, I think our view should be: We want to see 
concrete measures taken, not words, not promises, not 
agreements to do these things, concrete steps.
    Mr. Chairman, I think that in the interest of time, I will 
skip over the rest of my statement and simply say that I am 
pleased that some of my fellow Commissioners have been able to 
join us today in addition to my colleague, the Vice Chairman, 
Mr. Sonnenberg.
    We have with us here also Ms. Juliette Kayyem, Dr. Richard 
Betts----
    The Chairman. If you will stand, please.
    Mr. Bremer. Sure. Juliette Kayyem.
    The Chairman. Thank you.
    Mr. Bremer. Dr. Richard Betts.
    The Chairman. Thank you, sir.
    Mr. Bremer. Former Congresswoman Jane Harmon.
    The Chairman. Thank you.
    Mr. Bremer. And Gardner Pekham.
    The Chairman. Thank you. We appreciate your coming, all of 
you.
    Mr. Bremer. That concludes my statement.
    The Chairman. Very well.
    [The prepared statement of Mr. Bremer follows:]

             Prepared Statement of Hon. L. Paul Bremer III

    Mr. Chairman, Members of the Committee, thank you for the 
opportunity to appear before the Foreign Relations Committee today to 
review the conclusions and recommendations of the National Commission 
on Terrorism.
    The threat of terrorism is changing dramatically. It is becoming 
more deadly and it is striking us here at home. Witness the 1993 
bombing of the World Trade Center, the thwarted attacks on New York's 
tunnels, and the 1995 plot to blow up 11 American airliners. If any one 
of these had been fully successful, thousands would have died. Crowds 
gathered to celebrate the Millennium were almost certainly the target 
for the explosives found in the back of a car at the U.S. border in 
December 1999. Overseas, more than 6,000 casualties were caused by just 
three anti-U.S. attacks, the bombings of a U.S. barracks in Saudi 
Arabia and of the U.S. embassies in Kenya and Tanzania.
    If three attacks with conventional explosives injured or killed 
6,000, imagine the consequences of an unconventional attack. What if a 
release of radioactive material made 10 miles of Chicago's waterfront 
uninhabitable for 50 years? What if a biological attack infected 
passengers at Dallas-Fort Worth Airport with a contagious disease?
    It could happen. Five of the seven countries the U.S. Government 
considers terror-supporting states are working on such weapons and we 
know some terrorist groups are seeking so-called weapons of mass 
destruction.
    Congress established the National Commission on Terrorism to assess 
U.S. efforts to combat this threat and to make recommendations for 
changes. The Commission found that while many important efforts are 
underway, America must immediately take additional steps to protect 
itself.
    First, we must do a better job of figuring out who the terrorists 
are and what they are planning. First-rate intelligence information 
about terrorists is literally a life and death matter. Intelligence 
work, including excellent cooperation with Jordan, thwarted large-scale 
terrorist attacks on Americans overseas at the end of last year. Such 
welcome successes should not blind us to the need to do more.
    Efforts to gather information about terrorist plots and get into 
the hands of analysts and decisionmakers in the federal government are 
stymied by bureaucratic and cultural obstacles. For example, who better 
to tell you about the plans of a terrorist organization than a member 
of that organization? Yet, a CIA officer in the field hoping to recruit 
such a source faces a daunting series of reviews by committees back at 
headquarters operating under guidelines that start from the presumption 
that recruiting a terrorist is a bad thing. The Commission 
fundamentally disagrees with that presumption, as does the leadership 
at the Agency. So why continue to send this message to officers in the 
field.
    These guidelines were issued in response to allegations that the 
CIA had previously recruited individuals guilty of serious human rights 
abuses. The Commission found that however well intentioned, they 
constitute an impediment to effective intelligence collection and 
should not apply to counterterrorism sources. CIA field officers should 
be as free to use terrorist informants as prosecutors in America are to 
use criminal informants.
    We also need more vigorous FBI intelligence collection against 
foreign terrorists in America and better dissemination of that 
information. FBI's role in collecting intelligence about terrorists is 
increasingly significant. Thus, it is essential that they employ the 
full scope of the authority the Congress has given them to collect that 
information. Yet, the Commission believes unclear guidelines for 
investigations and an overly cautious approach by the Department of 
Justice in reviewing applications for electronic surveillance against 
international terrorism targets are hampering the Bureau's intelligence 
collection efforts. We recommend improvements in both of these areas.
    Once the information is collected by FBI, technology shortfalls and 
institutional practices limit efforts to exploit the information and 
get it into the hands of those who need it--such as intelligence 
analysts and policymakers. The Commission recommends increased 
resources to meet FBI's technology needs, particularly in the area of 
encryption. We also have a recommendation designed to improve the 
ability of agencies to quickly identify, locate, and use translators--a 
perennial problem that plagues not just intelligence agencies but is 
particularly critical for time sensitive needs such as preventing a 
terrorist attack.
    This de-crypted and translated information is only valuable, 
however, if it gets to the people who need it. Dissemination of general 
intelligence information has not traditionally been an important part 
of FBI's mission. They do a good job of sharing specific threat 
information but, otherwise, sharing information is not given a high 
priority. In fact, if the information is not specific enough to issue a 
warning or is not relevant to an investigation or prosecution, it may 
not even be reviewed. Information collected in field offices often 
never even makes it to headquarters.
    The CIA faces a similar problem with the information it collects 
overseas in trying to protect sources and methods while disseminating 
the information as quickly and as broadly as possible to those who need 
it. CIA addresses this with dedicated personnel, called reports 
officers, located overseas and at headquarters who are responsible for 
reviewing, prioritizing, and distilling collected information for 
timely distribution. The Commission recommends that the FBI establish 
its own cadre of reports officers.
    Signals intelligence also plays an increasingly vital role in U.S. 
counterterrorism efforts, yet the ability of the NSA to continue this 
essential mission is threatened by its failure to keep pace with 
changing technology. It is clear that while increased use of modern 
communications technologies by intelligence targets presents potential 
collection opportunities, the NSA will not be able to exploit these 
opportunities without improvements in its own technology. These 
improvements should include innovative technology applications, 
research and development of new technologies, and the use of commercial 
products.
    The Commission also supports extending the term of the Director of 
the NSA from three years to at least six years. This will allow a 
Director to be in place long enough to understand the challenges facing 
the agency, develop a plan to meet those challenges, build the 
necessary budget, and see to its implementation. A six year tenure has 
the added advantage of ensuring that the Director will be in place long 
enough to transition from one presidential administration to another. 
In addition, the position should be a four star billet to attract the 
necessary caliber of officer.
    On the policy front, the United States needs to go after anyone 
supporting terrorists, from state sponsors, to nations that turn a 
blind eye to terrorist activity, to private individuals and 
organizations who provide material support to terrorist organizations.
    Mr. Chairman, two of the countries most involved in supporting 
terrorism, Iran and Syria, are currently undergoing internal changes. 
In the case of Iran, while the Americans may hope that President 
Khatemi can institute sensible political and economic reforms, the 
regrettable fact is that Iran continues to be the world's primary 
terrorist nation. Indeed, in the period since Khatemi's election, 
Iranian support for terrorists opposed to the peace in the Middle East 
has actually increased. Furthermore, there are indications that Iran 
was involved in the 1996 bombing attack in Saudi Arabia that killed 19 
Americans. We think it is vital that the American government makes a 
sustained effort to enlist our allies in pressuring Iran to cooperate 
in the Khobar Towers bombing. Until there is a definitive change in 
Iranian support for terrorism, we recommend that our government make no 
further gestures towards the Iranian government.
    It is too early to tell if the death of Syrian dictator Hafez Assad 
will bring any change in that country's long support for terrorism. In 
American conversations with the new leaders of Syria, we should make it 
clear that Syria cannot expect normal relations with the outside world 
until it takes concrete, measurable steps to stop its support for 
terrorists. Hopefully the new leader of that country will come to 
understand that such a step is the prerequisite to obtaining the 
Western trade and investment essential to modernize Syria's economy. As 
with Iran, American policy should take its cue from Missouri: ``show 
me.''
    The other countries U.S. identifies as state sponsors (Cuba, North 
Korea, Sudan, Iraq, and Libya) should be made to understand that we 
will continue sanctions until they take concrete steps to cease all 
support for terrorism.
    The Taliban regime in Afghanistan is also clearly a sponsor of 
terrorist activity and should be designated a state sponsor, rather 
than its current designation as a state that is not cooperating fully 
with U.S. counterterrorism efforts. It is in this latter category 
because the State Department apparently was worried that designation as 
a state sponsor would be tantamount to recognizing the Taliban as the 
legitimate government. The Commission believes our government must find 
a way to call this regime what it truly is: a sponsor of terrorism.
    There are also states that, while they may not actively support 
terrorists, seem to turn a blind eye to them. This is the category of 
states that Congress gave the President the power to sanction as ``not 
fully cooperating against terrorism,'' but the power has not been 
effectively exercised. There are candidates. For example, Pakistan has 
been very helpful at times, yet openly supports a group that has 
murdered tourists in India and threatened to kill U.S. citizens. NATO 
ally Greece seems indifferent to the fight against terrorism. Since 
1975 terrorists have attacked Americans or American interests in Greece 
146 times. Greek officials have been unable to solve 145 of those 
cases. And just last week, terrorists struck again with the cowardly 
assassination in Athens of the British Defense Attache.
    Terrorist groups also benefit from private funding and the 
Commission recommends that the U.S. government use the full range of 
legal and administrative powers at its disposal to disrupt these 
funding sources. Money laundering, tax, fraud and conspiracy statutes 
all lend themselves to aggressive use against terrorist organizations, 
their front groups and supporters.
    It is difficult to predict whether terrorists will use chemical, 
biological, radiological or nuclear weapons. But the consequences of 
even a small-scale incident are so grave that certain weaknesses in the 
American approach should be addressed immediately. Three concrete steps 
could be taken right now to reduce the risk that terrorists will get 
their hands on a biological weapon: criminalize unauthorized possession 
of the most worrisome biological agents, strengthen safeguards against 
theft of these agents, and control the sale of specialized equipment 
necessary for weaponizing biological agents. Controls on biological 
agents should be as stringent as those applied to critical nuclear 
materials.
    Let me also take this opportunity to clarify the record on a couple 
of our recommendations that have been incorrectly reported in the 
press. The first has to do with foreign students in the U.S. For 
decades, the INS has required colleges and universities to collect and 
maintain information on the foreign students enrolled in their 
institutions. This has included information on citizenship, status 
(e.g., full or part-time), the date the student commenced studies, 
their degree program and field of study, and the date the student 
terminated studies. The purpose was to ensure that foreigners who came 
to the United States as students did not break the law by staying after 
they had finished, or stopped their studies. Until recently this data 
was managed manually and was thus not available to the government in a 
timely manner.
    The bombing of the World Trade Center in 1993 showed the weakness 
of this long-standing process when it was discovered that one of the 
bombers had entered this country on a student visa, dropped out and 
remained here illegally. He was subsequently tried and convicted for 
his role in that terrorist attack, which took six American lives and 
injured over 1,000 others. He is currently serving a 240-year prison 
term.
    Concerned by the obvious inadequacy of the long-standing program to 
collect information about foreign students, in 1996 Congress directed 
the Attorney General to modernize that system. In response, the INS 
established a pilot program using an internet-based system to report 
electronically the information colleges and universities had already 
been collecting for over three decades.
    The pilot program, called CIPRIS, covers approximately 10,000 
foreign students from all countries who are enrolled in 20 colleges, 
universities, and training programs in the southern U.S. The purpose is 
to bring the visa-monitoring system into the 21st century. After 
several years experience, the INS has concluded that CIPRIS is 
effective and has proposed to apply it nationwide.
    The Commission reviewed CIPRIS and the criticisms of the program, 
the primary one being the INS proposal to have the universities collect 
the fees needed to support the program. It is important to note that, 
while the universities opposed the idea of having to collect the fee, 
they did not oppose the main objective of the program to require 
reporting of information on foreign students.
    The Commission concluded that monitoring the immigration status of 
foreign students is important for a variety of reasons, including 
counterterrorism. The Commission did not believe, however, that it was 
in a position to recommend specifically that the CIPRIS program be 
implemented.
    The Commission is not recommending any new requirements on foreign 
students in the United States. The Commission's position is consistent 
with regulations that have been in place for many years, and with the 
view of Congress which mandated the creation of a program to more 
efficiently keep track of the immigration status of foreign students.
    There have also been some reports claiming that the Commission 
recommends putting the Department of Defense in charge of responding to 
terrorist attacks in the U.S. This is not true. What we said, and I am 
now quoting from the report, is that ``in extraordinary circumstances, 
when a catastrophe is beyond the capabilities of local, state, and 
other federal agencies, or is directly related to an armed conflict 
overseas, the President may want to designate DOD as a lead federal 
agency.'' (Emphasis added.)
    The Commission did not recommend or even suggest an automatic 
leading role for the Defense Department in all cases. But if we 
undertake contingency planning for a catastrophic terrorist attack in 
the U.S., we must consider all plausible contingencies, including the 
possibility of a federalized National Guard force operating under the 
direction of the Secretary of Defense. Not to do so would be 
irresponsible. The best way to minimize any threat to civil liberties 
in such an extraordinary scenario is through careful planning, 
including a thorough analysis of the relevant laws, the development of 
appropriate guidelines, and realistic training. We don't want another 
overreaction due to lack of planning like we saw in the wake of Pearl 
Harbor. Thus, the Commission recommended that the National Security 
Advisor, the Secretary of Defense, and the Attorney General develop 
detailed plans for this contingency.
    As the danger that terrorists will launch mass casualty attacks 
grows, so do the policy stakes. To protect her citizens, America needs 
a sustained national strategy in which leaders use first-rate 
intelligence to direct the full range of measures--diplomatic, economic 
and commercial pressures, covert action and military force--against 
terrorists and their state sponsors.
    Mr. Chairman, at this point I would like to introduce my fellow 
Commissioners who are here today: the Commission's Vice Chairman, Mr. 
Maurice Sonnenberg, Dr. Richard Betts, Ms. Jane Harman, Ms. Juliette 
Kayyem, and Mr. Gardner Peckham. In addition to those here today, the 
Commission included Gen. Wayne Downing, Dr. Fred Ikle, Mr. John Lewis, 
and Mr. James Woolsey. It was a privilege to work with this group of 
dedicated individuals.

    The Chairman. Mr. Sonnenberg.

   STATEMENT OF MAURICE SONNENBERG, VICE CHAIRMAN, NATIONAL 
            COMMISSION ON TERRORISM, WASHINGTON, DC

    Mr. Sonnenberg. Mr. Chairman, I thank you for allowing us 
to present our statements here today.
    I have a very brief statement, because some of what I would 
have said has been already stated by the chairman, and 
basically it is the following: This had been a genuinely 
bipartisan effort. The membership of this Commission covers the 
full political spectrum, from liberal, to conservative and 
represents a wide-range of ethnic, religious and professional 
backgrounds.
    The press has referred to our Commission as being made of 
six Republicans and four Democrats, but I can tell you on a 
non-classified basis, there is one Republican appointee here, 
who is probably a Democrat. That makes it 50/50.
    During 6 months, we have spent hours debating, and in some 
cases agonizing the issues addressed in this report, and at no 
point was there any acrimony.
    As you can see, there is probably one lone footnote--one 
footnote in lone dissent on the question of the FISA request. 
Even in this case, however, while the majority of us disagreed 
with the dissenting Commissioner, we respected her position as 
one of sincere belief.
    It should be understood that the ten highly qualified 
individuals--well, at least nine. I will let someone else judge 
me. But in any case, ten individuals on this committee writing 
on their own would no doubt have put forward ten somewhat 
different perspectives on many of these issues.
    Through diligence and a sense of mutual respect, we have 
been able to put together a coherent, formidable report.
    A few final remarks: Terrorism must not become a pretext 
for discrimination against one segment of society. Terrorists 
often claim responsibility for violent actions on behalf of 
ethnic groups, religions and entire nations, but these claims 
are false and must be understood to be such.
    Those willing to carry out terrorist acts make up only a 
miniscule part of any group. Furthermore, this Commission has 
taken great pains to keep in mind the rights of individuals 
under the Constitution and to balance those rights with the 
need to protect the citizenry as a whole from the scourge of 
terrorism.
    One final point, Mr. Chairman, I would like to refer to my 
chairman, Ambassador Bremer, and point out he has done a 
yeoman's job in both moderating the different viewpoints of the 
Commission and crafting the report you see before you. He 
somehow managed at the same time to leave everyone's ego intact 
and good spirits thereto.
    Thank you very much, Mr. Chairman.
    The Chairman. I thank you, both of you gentlemen.
    We have other Senators on the way, I am told, but several 
have commitments that they cannot leave, because they are 
presiding in other committees. This is a busy time of the year. 
And I like it that way, because then I can ask all the 
questions I want to.
    Seriously, let me ask about North Korea. Are you encouraged 
by the developments there with respect to terrorism?
    Mr. Bremer. Well, I think it is a bit early to make a 
judgment as to what happened yesterday, Mr. Chairman. 
Certainly, the communique has the right tone. It is just a 
little weak on substance. But at least there seems to be a 
process that has begun between North and South, which after all 
in the end lies at the heart of the reconciliation on the 
peninsula.
    The concerns with North Korea on terrorism involved the 
fact that North Korea continues to provide safe haven, in 
effect, for a number of Japanese terrorists.
    The Chairman. Right. Yes.
    Mr. Bremer. And that there are credible reports that at 
least as late as last year, North Korea was selling weapons to 
terrorist groups.
    So I think as the process of presumed reconciliation goes 
on between the North and the South, and as this has an impact 
on our relations with North Korea, we need to continue to have 
terrorism at least in the dialog that we have with the North 
Koreans.
    The Chairman. You never know what tips the scales in a 
development like this North Korea deal with the South.
    I have a friend, probably well known to you as well, 
Franklin Graham, who is Billy Graham's son. Now, Billy Graham 
has been concentrating himself on North Korea, and Franklin for 
the last several months has been doing that. And he has had 
surprising entry into discussions on a personal basis with the 
leaders there.
    So you never know what causes big events to happen. But 
those two men are from my state, both of them long-time 
friends.
    But let me go to Iran. The administration in Iran has been, 
I think, sort of stonewalling us on Khobar Towers and has 
increased its support for terrorists. Now, do not unilateral 
concessions by the United States undermine the credibility of 
our overall anti-terrorism policy?
    Mr. Bremer. Mr. Chairman, I think--we looked at this very 
closely on the Commission, and I think we are understanding of 
the point that counterterrorism cannot be the only objective in 
American foreign policy.
    Second point, that there are developments in Iran, which 
are potentially encouraging. It is potentially encouraging that 
we may have a more reform-minded, perhaps more open to the 
West, government coming to power in Iran.
    And so we understand that this is not a black or white 
question, but what is black or white is that the Iranian 
Government, elements of the Iranian Government, continue to 
support terrorism and continue to be major supporters of groups 
which are violently opposed to peace in the Middle East.
    Those are the facts. And our recommendation really grew out 
of basically a concern similar to yours that our gestures 
toward the new Iranian Government might be misinterpreted both 
in Iran and elsewhere as a weakening of our resolve on 
counterterrorism and that is why we do not think anymore should 
be done.
    Mr. Sonnenberg. I would add to that, that there is a 
problem in terms of a duality within Iran. And the duality is 
you have got the Ministry of Information, the Republican Guard, 
who in my opinion, are actively engaged in supporting 
terrorism.
    There are those elements which happen to be ``more 
moderate.'' And it is very difficult at some times to conduct a 
foreign policy in a black-and-white situation as the chairman 
points out; and therefore, we felt that the concessions that 
had been made, that is sufficient. I mean, they are done, they 
are done.
    But at this point, unless there is a sterling evidence of 
them ceasing--meaning those two particular agencies of the 
Iranian Government and the military guard----
    The Chairman. Yes.
    Mr. Sonnenberg [continuing]. It becomes important to not 
make anymore concessions at this point. Now, that does not mean 
discussion and negotiation--or ``negotiation'' perhaps is too 
early a word, but at least discussions.
    The Chairman. Fine. And last--I mentioned this in my 
opening statement. I want you to elaborate on it a little bit 
and help me out with it.
    The State Department has proposed including Greece in the 
Visa Waiver Program, so that Greek citizens can enter the 
United States without a United States visa. In light of 
Greece's failure to pursue terrorists who have murdered 
Americans, very clearly, do you agree with the decision to 
remove restrictions on travel from Greece?
    Mr. Bremer. Mr. Chairman, we looked at this question in 
regard to the broader recommendation we make of making more 
creative use of the category of ``not cooperating fully.''
    You will remember, Mr. Chairman, that until 1996 the U.S. 
Government basically had two choices when it looked at a 
country. It was either a state supporter of terrorism or it was 
not.
    And Congress gave the President the authority to create a 
third category called, ``not cooperating fully.''
    We do not believe that effective use has been made of that 
category. I call it sort of a halfway house for nations, which 
perhaps are not doing everything they could in the fight 
against terrorism and need to be put on notice that they might 
become state sponsors.
    Conceivably, as we say in the report, you could have state 
sponsors who have tidied up their act in concrete ways who 
would then move into the ``not fully cooperating'' category. It 
is a halfway house with a door to heaven and a door to hell.
    This has not been used effectively. And what we recommended 
was particularly that the administration should look at Greece 
and Pakistan. As the law now stands, the only sanction which 
comes into effect if a country is labeled ``not fully 
cooperating'' is a ban on military sales.
    We felt that another ban that Congress should consider 
putting into the law would be to make such nations not eligible 
for the Visa Waiver Program.
    If the administration were to designate a country, Greece, 
Pakistan or some other country as not fully cooperating and 
Congress were to pass such a visa waiver restriction, then 
obviously those people would not be eligible.
    The Chairman. One final thing: I want to talk about the 
guidelines, and I agree with the Commission that they should 
not apply to terrorist sources. But have these guidelines had a 
chilling effect on efforts to penetrate terrorist groups, and 
has that created sort of a gap in our intelligence?
    Mr. Bremer. The conclusion of the Commission after taking 
testimony from serving and retired case officers at the CIA, 
both here and in the field, was that these guidelines, whatever 
their intention, have had a chilling effect on getting case 
officers to go after the hard targets who are terrorist 
informants.
    Now, I am aware that the Central Intelligence Agency has 
said publicly after our report that they have never turned down 
a request for a recruitment by such an informant. Frankly, Mr. 
Chairman, that misses the point of what we are talking about.
    Our concern is with the young case officer in the field who 
sees a very difficult and complicated, cumbersome and sometimes 
time-consuming process of recruiting these most difficult kinds 
of informants before him or her and decides to go after easier 
targets.
    And we heard testimony from officers in the field, both 
senior and mid-level officers that that is, indeed, what 
happens. So our conclusion, which was unanimous, in our 
bipartisan commission, was that these guidelines should not--
should no longer be in effect for the recruitment of terrorist 
informants.
    It does not mean we are suggesting giving a carte blanche 
to the CIA to go out and hire people right and left. There 
always has been a process in place in the CIA for vetting such 
informants before they are hired. And we think that those 
procedures should be re-instituted in the case of terrorist 
informants.
    Mr. Sonnenberg. A point on that is, substantively speaking, 
I think both the Agency--well, I know the Agency and this 
Commission and others would agree on the goal, and that is to 
bring in as many people as they possibly can that will be 
useful in this effort against terrorism.
    Now, the difference is that the question arises as to the 
value versus the background of some of these people. Well, we 
are in an age now where one has to consider and weigh those 
very much, for example, like the FBI, a good example, in using 
organized crime figures as witnesses.
    For example, the most recent knowledgeable--well, one we 
know the most about is a fellow named Gravano who had murdered 
19 people and was, in fact, used by the FBI in helping to 
convict Gotti.
    Now, we understand there is a balance here. There is also a 
historical context here.
    I think that many of these--well, the guidelines in general 
came out of a period of strife within Latin and Central 
America, particularly--and in particular, Guatemala.
    Now, having coming out of that particular era, the 
guidelines that applied then or that were, in fact, sought in 
1995, which is when they came in, might have different 
relevance today.
    I am not saying that in looking back at the way assets were 
recruited might or might not have been in some cases a mistake. 
But the point of it is that after those guidelines were 
passed--the cold war ended in 1989. The situations that brought 
those guidelines to pass changed enormously.
    So today it may very well be that the pendulum has swung 
somewhat the other way in being too strict in how to handle the 
acquisition of unsavory assets, and I think that is something 
that should be put in context.
    The Chairman. Now, just a personal question: I have always 
been curious, all governments and particularly this one--since 
I have been a member of it formally for 28 years or more--hold 
so many meetings, convene so many commissions. Everybody is 
meeting.
    Now I want to know if you will tell me with whom you have 
sat down in the administration to discuss this. And I am not 
looking for a critical answer. I am hoping for a hopeful 
answer.
    Mr. Bremer. Well, are you talking about this particular 
history, Mr. Chairman, or our whole----
    The Chairman. The whole ball of wax.
    Mr. Bremer. Well, in the back of our report, we list the 
formal testimony we had. I think there is some--about 150 
people who gave testimony to the Commission, a great number of 
them from the Government.
    We had very good cooperation from the executive branch, the 
Department of State, the CIA, FBI, Justice Department. We had 
very good cooperation, Senator, and the list of names are here. 
Some of--all of the witnesses----
    The Chairman. I know that. I have got this right here.
    Mr. Bremer. All of the witnesses you are going to hear 
after us were also witnesses before our Commission. So we had 
very good cooperation.
    The Chairman. And you were satisfied with the followup by 
the various agencies with which you have consulted?
    Mr. Bremer. Well, I think that remains an open question, 
Mr. Chairman. We, by the law, were required to report to 
Congress and to the President our findings and recommendations.
    We hope that both Congress and the executive branch will 
take these recommendations seriously and will carry them out. 
The report has only been out for 10 days, so to I think it 
would be premature to say whether we are satisfied with the 
response----
    The Chairman. I do not want to beat this dog much longer, 
but do you have confidence that this report is going to be 
adhered to and brought to the attention of folks down the line?
    Mr. Bremer. The impression I get from talking to people in 
the executive branch after its issuance is that they are taking 
it seriously. Whether it is adhered to is something you will 
have to ask the folks that are coming after us.
    The Chairman. OK. All right.
    We have been joined by Joe Biden from Delaware.
    Senator Biden. Thank you, Mr. Chairman.
    The Chairman. He's a very fine ranking member of this 
committee.
    Senator Biden. Mr. Chairman, I would ask unanimous consent, 
to save time, that my statement be placed in the record.
    The Chairman. By all means, without objection.
    [The prepared statement of Senator Biden follows:]

            Prepared Statement of Hon. Joseph R. Biden, Jr.

    Mr. Chairman, thank you for holding this very important and timely 
hearing. International terrorism is a daunting challenge. The number of 
terrorist incidents has gone down in recent years; but as the National 
Commission on Terrorism points out, the lethality of terrorist attacks 
is increasing.
    The risk of truly catastrophic terrorism is also real, as modern 
technology and the collapse of the former Soviet Union have the 
potential to bring weapons of mass destruction within the grasp of the 
most violent terrorists. I am pleased that the Commission has noted 
that concern.
    Chairman Helms has pushed for increased funding of State Department 
programs that safeguard former Soviet weapons of mass destruction, but 
the Foreign Operations Subcommittee of Appropriations wants to cut 
those programs. We need bipartisan support to restore those funds on 
the floor.
    I am very pleased that so many members of the Terrorism Commission 
are here today. While Ambassador Bremer and Mr. Sonnenberg are the 
witnesses with prepared statements, I know that several others of you 
have strong views on particular issues. We will be interested to hear 
how those varying perspectives led to unanimity on nearly all of your 
recommendations.
    When the Commission's report was issued last week, several 
controversies erupted. I think that some of those were a bum rap, and I 
hope we will use today's hearing to clear the air. The Commission 
should be able to give important assurances regarding its 
recommendations on the monitoring of foreign students' status and on 
the role of the Defense Department after a catastrophic major terrorist 
incident.
    Our executive branch witnesses will also provide useful 
perspectives on those and other recommendations of the Commission.
    In closing, I think we should also note how many of the 
Commission's recommendations are not controversial.
    We should all be able to support the new International Convention 
for the Suppression of the Financing of Terrorism and the idea of 
drafting a convention on cyber crime. We should all support greater 
funding of responses to the terrorist threat, including more linguists 
and such innovations as FBI ``reports officers'' to give other agencies 
the full benefit of terrorist materials seized by the Bureau.
    We should all be able to support a sensible increase in our 
controls over dangerous pathogens, and I will work for this in the 
Judiciary Committee. I personally think that we should also consider a 
crash program to increase our stock of smallpox vaccine. Nearly all of 
us--indeed, nearly all of the world--would be vulnerable if there were 
an accidental or terrorist release of this deadly plague, because 
nobody has been routinely vaccinated in decades.
    Again, thank you, Mr. Chairman, for arranging this forum to discuss 
such critical matters.

    Senator Biden. Generally, let me pick up where the Chairman 
left off. You are responding to the concern expressed that this 
may not be paid attention to.
    Have you had a chance to speak to anyone in the Congress 
other than us about this? The reason I ask the question is that 
I was surprised to learn that the Foreign Operations 
Subcommittee did exactly the opposite of what you guys 
recommended already.
    I mean, we came out here and the Senator--through the 
Senator's leadership, we increased the amount of money that we 
recommended for anti-terrorism efforts. And yet unless 
something has changed in the last 24 hours, my understanding is 
that the anti-terrorism assistance program, which you talk 
about--I have read your report fully--you talk about increasing 
the financial commitment on a range of areas.
    And ironically the Appropriations Committee has cut them 
all, has cut the assistance program by 20 percent, the 
terrorist interdiction program, I am told, by 50 percent, the 
export control assistance program by 30 percent, although I am 
told that may have been changed. And the science and--it has 
been changed? OK--and the science and technology, they cut by 
55 percent.
    Have you had a chance to talk to any of those folks? Not 
that it is your responsibility, but----
    Mr. Bremer. We have not--no.
    Senator Biden [continuing]. I am just wondering whether you 
did or not.
    Mr. Bremer. No. This is the second hearing we have had. We 
have only had the other hearing that was before the Senate 
Intelligence Committee last week.
    We are, of course, prepared to appear before any 
congressional committee that asks us to, and we will certainly 
support reasonable allocation of resources to the fight against 
terrorism. It is inherent in our report.
    The Chairman. I know I recommended it in writing.
    Senator Biden. Yes, you did. That is what I said. It was 
the--I mean, it was not merely the committee. It was 
specifically the leadership of the chairman recommending that 
it should be done.
    The Chairman. Absolutely.
    Senator Biden. And I am just saying my--to my surprise, but 
correct me--again, maybe staff on either side can correct me if 
I am wrong. But the appropriators, with the possible exception 
of the export control assistance program, cut all the other 
programs--is that right?
    Staff. Yes, sir.
    Senator Biden. Notwithstanding what the request was. OK.
    At any rate, now let me move on to a couple of other areas, 
if I may, Mr. Chairman.
    The Chairman. Yes, sir.
    Senator Biden. On page 44 of your report, you call for new 
legislation regarding the possession of dangerous pathogens, 
including the tagging and sale of equipment that is critical to 
development of biological agents.
    And the Deutsch Commission on non-proliferation had a 
similar concern and your suggestion seemed to be in keeping 
with our efforts to develop compliance protocol with the 
Biological Weapons Convention.
    Could you explain what it is you think the Congress should 
do in this area? Because we had big--I introduced a terrorism 
bill in the Judiciary Committee after Oklahoma, and to my great 
surprise, some of the things recommended by all the 
intelligence groups and people were absolutely blown away here. 
I could not get to first base on them.
    One was tagents, for certain explosives; tagents in certain 
fertilizers. Tagent--and it was like I had said we were going 
to do away with the fourth amendment or something. I mean, it 
was, really. It did not pass, by the way.
    Mr. Bremer. I know.
    Senator Biden. In the face of Oklahoma, it did not pass.
    Mr. Bremer. Yes.
    Senator Biden. And also, well, other things I want to talk 
to you about, if not at this time, at some point, the whole 
idea of the ability to increase wire taps. I mean, I was not 
asking for much in mine. You guys are asking for a hell of lot. 
And I was not asking for much, and no shot. It did not get 
anywhere.
    Third, the proposal that we be able to deal with the 
infiltration of some groups: I mean, it was, you know, all of a 
sudden, the minutemen were out in force. So what I am trying to 
get at here is I--can you explain what it is you think we 
should be doing relative to being able to trace and/or prevent 
the possession of these pathogens?
    Mr. Bremer. Yes. Thank you, Senator. Let me try to be 
somewhat more precise on this. It is now currently not against 
the law to possess biological pathogens. We are suggesting that 
unless you have a reason to own those biological pathogens, it 
should be illegal.
    The controls that are in effect on biological agents are 
considerably less than those we have developed over the last 50 
years for nuclear agents. And we suggest they should be made 
the same. As for how to go about that, it is a question of 
drafting the legislation.
    In terms of the tagent question, which is a sensitive one, 
and I remember being involved in that issue when I was still in 
government 15 years ago. It is a very sensitive one. But what 
we are suggesting is tagging equipment.
    And there are--for example, it is not as easy to make a 
biological weapon as sometimes you get the impression. You need 
specialized fermentation equipment. You need centrifugal 
separators. You need things called cross-flow filtration 
equipment. You need aerosol inhalation chambers.
    There is very specialized equipment, which incidentally is 
now controlled for export. These kinds of things are already 
controlled in the United States for export.
    But the domestic sale of these kinds of equipment is not 
controlled. And we suggest that Congress should take a look at 
controlling those kinds of things which would be needed to 
weaponize biological weapons.
    Senator Biden. Have you talked to--have you--and I am not 
suggesting you should have. I just want to know how far along 
you have gotten.
    Have you discussed the implications of your proposal for 
industry and for academic research, or is it something you have 
made a collective judgment internally about? Did you call 
witnesses before you from industry and from academic research 
institutions?
    Mr. Bremer. We did not have any witnesses from industry on 
this particular subject. We did have people from the academic 
field, because they were the ones who could tell us what kind 
of equipment, for example, we were talking about.
    It seems to me in anything like this, it is important if 
Congress does move, that you are going to have to obviously 
work with industry, because you do not want to inhibit 
legitimate market activities.
    But it seems, again, to us that the risk of a biological or 
catastrophic biological attack is so great that we ought to at 
least try to plug whatever holes we can identify.
    Senator Biden. Loose nukes: You said that, on page five, 
the Commission was particularly concerned about the persistent 
lack of adequate security and safeguards for nuclear material 
in the former Soviet Union.
    And as I indicated in a bill that we reported out, that 
Chairman Helms authorized funds above what the President 
requested for fiscal year 2001 to fund the export control 
equipment as well as this international science and technology 
center. It looks as though at least part of that was not 
funded.
    Do you agree with this committee that these programs should 
be funded above the President's request?
    Mr. Bremer. Well, Senator, we did not look in detail into 
particular budgetary levels for issues like that. We simply did 
not have time with only 6 months.
    But I would certainly endorse the general principle, as we 
have in the report that it is important to keep these things 
out of terrorist hands. And to the extent that we are not 
putting enough resources behind that effort, we should change 
that and put the resources behind it.
    Senator Biden. One of the things you spoke to--and my time 
is about up--is the improvement in analysis of intelligence 
data that we collect.
    And one of the things I have found from years of doing this 
as chairman of the Judiciary Committee in dealing with 
terrorism from that side of the ledger is that we have precious 
few linguists where we need them.
    If I can be anecdotal, when Hong Kong was ``turned over,'' 
we had overwhelming evidence that the triads, their organized 
crime gangs were moving out in large numbers into Vancouver, 
and into Seattle.
    And one of the things that we developed over the years and 
the British developed was some very, very sophisticated and 
successful penetration methods, mostly human intelligence like 
we have done in the Mafia.
    We have--in the Mafia--fortunately, we have tens of 
thousands of Americans who speak Italian, who 99.9 percent of 
them have nothing to do with the Mafia. But we are able to 
infiltrate into those families, those Mafia families, Italian 
Americans who work for the FBI, work for agencies.
    We do not have anybody who can speak the Chinese dialects 
that are needed, and so we actually entertained the idea--and I 
proposed an idea of actually giving citizenship to some of the 
Royal Constabulary boys who were working Chinese in Hong Kong, 
give them citizenship in return for their continuing to work 
for intelligence agencies over here.
    What you have suggested here is that we should go out of 
our way to find talented linguists. And during the Gulf war, we 
used linguists from all walks of life.
    Should we be reaching out to people beyond the way in which 
we do it now, which is we say, ``Come join--join, become a 
member of the agency''--whatever the particular agency we are 
seeking them to be a part of in the intelligence community--
``and you are in''? We did not wait to do that in the Gulf war.
    We went out and we just gathered up people who worked for--
were corporate presidents, were school teachers, were 
professors, were laundresses. And we brought them in. What are 
you talking about in terms of how to deal with what is clearly, 
clearly a problem? And I note parenthetically during that 
abortive and embarrassing effort to rescue prisoners--the folks 
in Iran, we only had two people who spoke Farsi at the time in 
the Agency, if my memory serves me correctly. Well, that is 
awhile ago. What do we do?
    Mr. Bremer. Well, this is a very important problem, 
Senator. And we found it across the board.
    All of the U.S. Government agencies we talked to said, ``We 
have a crying need for linguists,'' because more and more, if 
you get intelligence that is either in audio form or 
intelligence, which is on computer disks, which terrorists use 
more and more, you have--and it could be very voluminous. You 
have to have people who can go through it.
    The problem is not only developing a pool of them; they 
have to be competent. They do not just have to be native 
speakers of the language. They also have to speak English, 
because they have got to be able to translate it for you.
    And in many of the cases of the intelligence we are talking 
about, there are potential security questions about needing to 
clear them.
    We looked at, but did not have a chance to go into 
questions like ``Should there be a special visa category,'' 
along the lines of what you suggested. Rather than making them 
citizens----
    Senator Biden. Yes.
    Mr. Bremer [continuing]. A halfway step might be some kind 
of a visa category to get these people here. There is a 
committee under the Director of Central Intelligence that tries 
now to coordinate--called Flex Com, that tries to coordinate a 
pool of linguists. And we think it needs more authority and 
more linguists. But it is certainly a major problem and one 
that needs attention.
    Senator Biden. Mr. Chairman, I would ask unanimous consent, 
unless we do not have further rounds, that a number of 
questions I have be----
    The Chairman. Without objection. All of us want to submit 
additional questions and have them included in the record.
    Mr. Sonnenberg. I would add one thing on that language 
problem.
    The Chairman. Paul, Mr. Sarbanes.
    Senator Sarbanes. Chris was actually----
    The Chairman. Senator Dodd.
    Senator Dodd. Well, I thank my colleague from Maryland, and 
thank you, Mr. Chairman.
    I know both of the witnesses. It is a pleasure to see them, 
and I would welcome my friend Maurice Sonnenberg, whom I have 
known for many, many years. And thank you for your efforts.
    I would like to focus--let me just--I would ask unanimous 
consent, Mr. Chairman, to put a statement in the record, rather 
than going through it.
    The Chairman. Yes, sir.
    [The prepared statement of Senator Dodd follows:]

             Prepared Statement of Hon. Christopher J. Dodd

    First, I would like to welcome our witnesses, and thank them for 
their efforts in creating this detailed and comprehensive report. Mr. 
Bremer and Mr. Sonnenberg have done a fine job of consulting experts 
with a wide range of sources and perspectives, and in reconciling 
several different opinions into one consensus document. Included among 
those consulted for this report were our second panel of experts, Mr. 
Sheehan, Mr. Watson, and Mr. Reynolds, and I thank them as well for 
their efforts in the fight against terrorism. I am sure that their 
respective insights into the international, investigative, and 
prosecutorial aspects of terrorism in America will be invaluable to 
this hearing and any legislative activity that may come from it.
    I must say, I was very interested to read this report. According to 
those consulted, it is clear that terrorism poses an increasingly 
dangerous threat to Americans both at home and abroad. In the absence 
of superpower conflicts in this post-Cold War era, terrorism is likely 
to become the warfare of choice for small rogue states to advance their 
ideologies. To protect the public from this threat, I agree that the 
United States must increase efforts to prevent terrorist attacks, 
prepare and train the armed forces in correct procedures to follow in 
the advent of a biological or chemical attack, and review and 
coordinate counter-terrorism measures between agencies of the federal 
government. I also agree that we should sanction, with the exception of 
food and medicine, the sale of goods to states that support terrorism 
and fail to cooperate on international counter-terrorism measures. 
These measures send a clear message that terrorism will not be 
tolerated in the United States.
    I do take issue with this report on some important matters, 
however. The first concerns increased military and CIA involvement in 
domestic counter-terrorism efforts. Historically, the FBI has had 
jurisdiction over counter-terrorism efforts in the United States. The 
report of the National Commission on Terrorism seems to advocate 
increasing the role of the CIA in domestic efforts and suggests that 
the military lead the government response to terrorist activity. The 
question I ask, and I hope will be answered in the course of this 
hearing is; Why? Is the FBI not adequately performing its counter-
terrorism duties? The attacks on the World Trade Center and Murrah 
Building were both capably handled by regular law enforcement agencies. 
Why involve the military? I worry that increased involvement by the 
military in domestic counter-terrorism efforts will cause confusion 
both among government agencies and citizens as to which agency handles 
domestic terrorism issues.
    A second topic of concern to me is on the subject of investigation 
of foreign nationals resident on American soil. While I believe that it 
is important to fully investigate allegations of possible terrorist 
activity when the evidence warrants, I do not believe that the United 
States government should collect information on every foreign student 
who comes to the United States to study in a database. This, to me, 
seems to contradict the rights set forth in the Constitution and Bill 
of Rights, and constitutes a dangerous violation of the personal 
liberties we take for granted. I represent a state that contains a 
number of educational institutions, many of which have expressed 
concern with this issue. From what I understand, under the report's 
recommended procedures, a foreign student at any of these institutions 
could come under suspicion for nothing more serious than changing their 
major from political science to physics. It appears to me that from 
this report we are to assume that all foreign students who take a 
sudden interest in physics are training to be terrorists and need to be 
investigated. If implemented, this procedure would create a dangerous 
precedent for the investigation and observation of citizens, and I am 
not sure that we want to do that. I want to be clear, I am not against 
protecting ourselves from terrorism. I simply believe that we have to 
be careful to respect personal privacy and balance the rights of the 
individual with the need for a strong national defense.
    I am sure that this issue will arise in the course of our 
discussion today, and I look forward to hearing testimony on this 
subject. Once again thank you for coming today, and for your hard work 
on this report.

    Senator Dodd. Let me raise a couple of questions, some of 
which relate in a way to what Senator Biden was raising, which 
could also be the subject almost of just a separate hearing on 
the language ability and training.
    Our problem is we do not begin second language training in 
this country in most of our school systems until high school. 
And in terms of language ability, if you do not begin at a far 
earlier age than that, the likelihood of developing people who 
have fluency, other than an immigrant population coming in, is 
very, very difficult, in my view. And so I think it is worthy 
of a subject matter.
    Paul Simon, a former colleague of ours, and I, spent a lot 
of time in talking about how to promote foreign language 
training to a larger extent than we have. That is a separate 
subject matter, but it is not unrelated.
    But the first question I have is in a sense having to do 
with the issue that has been raised already, I know, in 
numerous forums with the Commission, and that is the suggestion 
that the Central Intelligence and the military be more 
involved.
    And obviously that is a provocative suggestion and one that 
has already brought out several very legitimate questions.
    The fundamental question I have is sort of ``why?'' in a 
sense. I mean, I looked at the Trade Towers issue and Oklahoma 
City, and my sense of it was that our lead agencies under the 
present system did a very good job under those circumstances. I 
mean, the tragedy is terrible, but they seemed to have handled 
the matter fairly well.
    And I do not have any deeply inherent objection to the idea 
except that it can create a lot of confusion and take on 
different roles and responsibilities for which people are not 
normally trained for here, which means expanding a mission of 
branches of our Government, which could, in itself, raise some 
serious and legitimate questions.
    But I have heard this suggestion in other circumstances 
over the years. And the question I come back to is: Why is it 
necessary if, in fact, under the existing structure, they seem 
to be doing fairly well? Now, I know the threats are looming 
larger and it is more complex today. That is my first question.
    The second question has to do with this issue involving 
students. And, again, I think this is what Senator Biden was--
may have been dealing with before I came in, but we have all 
received letters, I believe, from this Association of 
International Education. And I have heard it from the 
universities in my state, from Yale, Wesleyan and Trinity, 
about their concerns here.
    As I understand it, basically, there is only one case, 
documented case that we know of with a foreign student being 
involved in activities that would certainly warrant that 
person's expulsion or arrest in these matters.
    But we have had millions of foreign students come to this 
country. And we are a massive beneficiary of this.
    We have adopted language here recently unanimously in the 
Senate to fund through the Library of Congress 10,000 Russians 
to come here and study. In fact, many would argue we wish we 
had done that sometime earlier in terms of trying to send back 
people who would have the experience of being here.
    I do not know how many heads of state--as someone--I travel 
extensively in Latin America. I do not know of a head of state, 
but I would have to think about it, that has not spent time 
here either as an undergraduate, a high school student or as a 
graduate student.
    The benefits to our country is immeasurable, because we 
welcome these people. We not only see it as a benefit to them. 
We see it, from a selfish standpoint, as a tremendous benefit 
to us.
    And I am uneasy about the idea that with one cited case and 
given the millions of students who come here that not a strong 
enough issue has been raised here on why we all of sudden have 
to do some additional monitoring.
    Second, there already is law, the 1996 Illegal Immigration 
Reform and Immigrant Responsibility Act mandates what I sense 
the Commission recommends. Under this law, a nationwide student 
monitoring system has to be in place by the year 2003.
    Now, I do not see any reference to that in the report. And 
so it seems to me you are almost recommending a duplication of 
something that is in place already.
    Now, I can see your head shaking no, so I will give you a 
chance to respond to that.
    But, again, I get uneasy, I guess, about the category of 
non-immigrants should be singled out for further monitoring, 
combined with what has already been mandated under law and the 
prospects.
    You can get into this pretty quickly. We are a nation of 
immigrants, but I will never forget one of my first town 
meetings as a Member of the House of Representatives in a small 
town in Connecticut. A fellow got up with a brogue as thick as 
I am sure one of my grandparents may have had when they arrived 
here, and wanted to know when I was going to support 
legislation that would stop these immigrants from coming into 
the United States.
    And it sort of stunned me. I asked him how long he had been 
here. He had been here 2 years, but that was enough. He thought 
the door ought to close at that point, and no more should come 
in.
    Someone once suggested that we ought to pass some laws that 
say that after five generations, you have got to leave.
    Because some of the best Americans are the ones who arrive 
here, who come from oppressive regimes, come from the very 
places that we are worried about. They leave because of the 
terrorism in their country. And they come here and they cherish 
and appreciate democracy. They just are wonderful Americans.
    And this has been our great strength. No other great nation 
that I can think of throughout history has been as open to new 
peoples coming to its shores.
    And it is the reason, more than anything else, that I think 
we may defy history when it comes to great civilizations, 
because we are not afraid of newcomers. In fact, we welcome 
them.
    They enrich us. And particularly those who can not only 
stay here, but may return to their countries having seen 
firsthand the benefits of a democratic society. And so I am 
very uneasy about suggestions here that we need to start either 
further monitoring of students, when I see no evidence and no 
documentation--of all the people who come here, these are the 
ones that are watched most closely.
    So those are the two questions I have and would ask for a 
response.
    Mr. Bremer. Senator, let me answer both of those. First of 
all, we did not imply or recommend any new role for the CIA and 
I--you said CIA and DOD.
    Senator Dodd. Yes.
    Mr. Bremer. I presume you meant the DOD, because we made no 
recommendations about a new role for CIA or any role for CIA in 
the United States.
    On the question of DOD, you are right, of course, that the 
agreed agency process worked in the case of the World Trade 
Center and Oklahoma City, thank God.
    What we have suggested is it is quite possible to imagine 
an attack of catastrophic dimensions where we were talking 
about not hundreds, but tens of thousands of people being 
casualties, which would quickly overwhelm the abilities of the 
state, local and Federal agencies to deal with it.
    And we believe that the President of the United States in 
such circumstances should have available contingency plans to 
ask the civilian leaders at the Pentagon to bring into bear the 
resources, the command control, communications and logistics of 
the military.
    Indeed, we believe that the best way to assure that civil 
liberties in the wake of such a catastrophic attack are not 
offended is to have made plans and exercise them ahead of time. 
That is all we have recommended.
    We think it would be imprudent not to have such plans, 
because we can foresee events that go way beyond the World 
Trade Center or Oklahoma City. That is what we are talking 
about.
    Now, with regard to students, first of all, I was a foreign 
student, so I feel very sympathetic to everything you said. As 
you pointed out, in fact, since 1965, it has been a requirement 
that all universities, including Yale and Wesleyan and--report 
all of the--about all of their foreign students to the 
immigration authorities. That has been on the books for 35 
years. We are not recommending anything else than that.
    In 1996, the act you cited--and we do cite it in the 
report--decided that the INS should be brought into the 20th 
century before the 20th century was over because until then, 
all of this data was being collected manually, scraps of paper 
kept in shoeboxes.
    Congress told the Attorney General, ``Computerize this 
program, and do it quickly. Do it with a pilot project,'' which 
has been conducted now for the last 3 years at 20 universities 
in the South, to see if it works. So the program is already in 
place. The INS thinks it works and has recommended it be made 
nationwide.
    That is exactly what the Commission recommended. We have 
simply said, ``Take the procedure that has been in effect for 
35 years, computerize it and make it nationwide.''
    There is nothing new in there. There is no new data being 
collected that has not been collected for three decades on 
foreign students in the United States.
    Let me finally say that we are under no illusions that the 
foreign students are themselves a particular body of threat, 
nor that our recommendation deals with the real problem, which 
is the security of our borders. There are more than a million 
and a half legal crossings of America's borders every day, a 
million and a half every day.
    There are about 245,000 foreign students coming to the 
country every year. So there is no question that this is a 
minor issue, but it is an issue where we thought we should take 
a position.
    Senator Dodd. Well, my time is up, but on page 29 of the 
report where it says, ``of the large number of students who 
come to this country, there is a risk that a small minority may 
exploit'' what evidence do you base that on? Where is the 
evidence that a small minority may do this?
    Mr. Bremer. Well, the evidence is it has happened, as you 
pointed out.
    Senator Dodd. One case.
    Mr. Bremer. Yes.
    Senator Dodd. One case, right?
    Mr. Bremer. Well----
    Senator Dodd. But the report does not cite that.
    Mr. Bremer. Well, are you suggesting we should do away with 
the legislation since 1965, Senator?
    Senator Dodd. No. No. No, but it says, ``The United States 
lacks a nationwide ability to monitor the immigration status of 
these students.'' We do not lack the ability to do that.
    Mr. Bremer. Well, we do lack it. That is why Congress 
passed the law in 1996 to put it into effect.
    Senator Dodd. Well, we passed a law. You did not mention 
that law in the report. It just seems to me you are----
    Mr. Bremer. All we are recommending, Senator, is exactly 
what Congress mandated in 1996, which is a nationwide program 
to monitor the immigration status of foreign students----
    Senator Dodd. We----
    Mr. Bremer [continuing]. All foreign students. That is all 
we are recommending. That is why, frankly, we have been 
somewhat surprised that there has been so much hysteria about 
it. All we are recommending is what Congress passed 4 years 
ago, nothing else.
    Senator Dodd. But why do you recommend something we have 
already done?
    Mr. Bremer. Because the question of making it nationwide is 
now out for comment as required by law. The INS has finished 
the pilot project, which the law required. They did that.
    They have now put out for comment the question of making it 
a nationwide program. All we have said is: We think there 
should be a nationwide program. That is why we did it.
    Senator Dodd. Thank you, sir.
    The Chairman. Senator Sarbanes.
    Senator Sarbanes. Thank you very much, Mr. Chairman. I know 
the chairman is anxious to move onto the next panel, and I just 
have two or three questions that I want to put to this panel.
    First of all, I note that in the appendix where you 
indicated those that the Commission consulted or interviewed or 
had discussions, or that you indicated you had met with 
officials of a number of governments----
    Mr. Bremer. Yes.
    Senator Sarbanes [continuing]. And in that regard, I was 
interested, since you pinpointed Greece and Pakistan in your 
report in a very pointed way, whether you met with or had 
discussions with any officials of those countries?
    Mr. Bremer. Not with Pakistan, and I don't think with 
Greece--with the Commission itself, as a Commission, did not 
meet with officials of those governments.
    Senator Sarbanes. But you did meet with officials of a 
number of governments, did you not?
    Mr. Bremer. Yes, we did. We met with governments which are 
cooperating with us in the fight against terrorism.
    Senator Sarbanes. Well, now, I have talked to Ambassador 
Burns who feels that he is getting good cooperation in Greece. 
This is a serious problem, and it is one that we have been 
focused on for quite some time.
    And I am concerned by the suggestion here that either the 
Greek Prime Minister or the Foreign Minister, both of whom 
are--it seems to me very strongly committed to trying to do 
something about the terrorism problem--are you questioning 
their commitment to anti-terrorism, Prime Minister Simitis and 
Foreign Minister Papandreou?
    Mr. Bremer. We took no position on the role of any 
particular individual in the Greek Government. All we said was 
we thought that the record justified our recommendation that 
the President should consider making Greece or Pakistan a 
country that is not fully cooperating.
    Mr. Sonnenberg. And the statements recently by the 
government have been rather strong and, we feel, helpful in 
this situation.
    Senator Sarbanes. Well, of course, they have made an 
initiative now to the European Union along with the British for 
a joint anti-terrorism effort. The government has offered a 
$2.8 million reward.
    What did you make of the arrest of Avram Lesperoglou last 
December in terms of a fight against terrorism in Greece?
    Mr. Bremer. I am sorry. I do not know what exactly you are 
referring to, Senator.
    Senator Sarbanes. Well, Lesperoglou was picked up at the 
border trying to come back into Greece. He is now in jail, 
because he tried to come in on forged documents. They regard it 
as a major success in trying to get at an anti-terrorism group. 
He was part of the group Anti-State Struggle.
    And they are now scheduling a trial for him in October of 
this year on murder and attempted murder based on his terrorist 
activities. But that arrest and that movement against that 
individual have not come to your attention?
    Mr. Bremer. No. What we looked at in the case of Greece was 
a rather poor record over the last 25 years, Senator.
    There have been almost 150 attacks on American targets in 
Greece in the last 25 years and basically in only one case has 
even an arrest been made, and the person who was arrested was 
then freed after 2 days.
    Four Americans have been killed in Greece by terrorism and 
the thing that we focused on most in terms of Greece in the 
last year, not the case you mentioned, but was the fact that 
senior Greek Government officials assisted in the escape of a 
Kurdish terrorist, Ocalan, through Greece and that the Greek 
Ambassador gave him refuge in his embassy in Nairobi until he 
was finally turned over to authorities.
    It is, as the State Department said, the weakest link in 
the fight against terrorism in Europe, and if the events of the 
last week, which have led--as my Vice Chairman points out to 
some statements--if these events lead to the Greek Government 
now finally actually making some arrests against November 17, I 
think we will all----
    Senator Sarbanes. November 17 has killed 23 people, 
correct?
    Mr. Bremer. At least 23.
    Senator Sarbanes. And four of them are Americans.
    Mr. Bremer. That is right.
    Senator Sarbanes. Actually, one of them was a childhood 
friend of mine, our naval attache in the embassy in 1983. So 
this is a problem that I have been cognizant of for a very long 
time. Of course, they also killed some leading members of the 
Greek community----
    Mr. Bremer. Right.
    Senator Sarbanes [continuing]. Including--and this is why I 
have difficulty with the implication in your report that 
leading government officials are not concerned about this 
problem--including the son-in-law of the Prime Minister of the 
country.
    Mr. Bremer. Well, they have killed Greeks, that is right.
    Senator Sarbanes. Deputy Bakogiannis was the son-in-law of 
Prime Minister Mitzotakis. Do you not think our focus ought to 
be, as I think both Secretary Albright and Ambassador Burns 
have indicated, in trying to work with the Greek authorities in 
a way that we can develop an effective anti-terrorism effort in 
Greece in order to crack the November 17 cell and to bring 
those people to justice?
    Mr. Bremer. I have no doubt that our Government--you will 
hear from the next panel--has made offers of assistance to the 
Greeks. But in the end, Senator, this is a Greek problem.
    The Greeks have got to solve this problem. And the way they 
solve it is by starting to making some arrests, which they have 
not done. This is not an international problem. This is a Greek 
problem. And what we all hope, I am sure now----
    Senator Sarbanes. Do you think--
    Mr. Bremer [continuing]. Is that the Greek Government will 
followup with its statements and make arrests.
    Senator Sarbanes. Do you think they know who to arrest 
within the November 17 organization?
    Mr. Bremer. I have no idea. I think if they knew, they 
would make the arrests. I think it is impossible to believe 
that a country like Greece, with whom the United States has had 
long, friendly relations would not act if they had information. 
And I do not like to believe that they--anything else.
    Senator Sarbanes. Well, then it seems to me our focus ought 
to be on working with them in order to crack the cell and get 
the information and bring these people to justice? Would you 
agree with that?
    Mr. Bremer. Well, I am sure that--I certainly hope that is 
what the executive branch will be doing, but I would like to 
point out again, it is not a question of simply cooperating 
with us.
    It is a question of the Greek Government doing its job, 
which is to stop terrorism that is taking place on Greek soil, 
particularly when we are in the runup to the Olympics there.
    Senator Sarbanes. Well----
    Mr. Bremer. This is a very important issue.
    Senator Sarbanes. Yes. But we try to lend our expertise and 
competency to countries around the world----
    Mr. Bremer. Of course.
    Senator Sarbanes [continuing]. In their anti-terrorism 
efforts.
    Mr. Bremer. And I am sure that the executive branch 
witnesses will be able to give you the details on what we have 
done.
    Senator Sarbanes. Yes. And you think we should do that, I 
think?
    Mr. Bremer. Absolutely.
    Senator Sarbanes. All right. Thank you.
    The Chairman. Now, the gentleman you were talking about--I 
assume he was a gentleman--Lesperoglou, is that his name?
    Staff. Yes.
    The Chairman. I am informed that he was arrested almost by 
accident by the narcotics police in Greece and not the 
counterterrorism police. Is that correct?
    Mr. Bremer. I just do not know, Mr. Chairman.
    Senator Sarbanes. He was stopped at the border.
    The Chairman. Yes.
    Senator Sarbanes. He was picked up at the border coming in 
on fake documents.
    The Chairman. Yes.
    Senator Sarbanes. When they identified him coming in on 
fake documents, they then put him in jail.
    The Chairman. Right.
    Senator Sarbanes. They subsequently sentenced him to three 
and a half years in prison right away, so that gets him, as it 
were, off the street. And they are now arranging for him to be 
tried for these murders that occurred back in the eighties as 
part of his terrorist activity on the part of a group, Anti-
State Struggle.
    The Chairman. I see.
    Mr. Sonnenberg, before we leave--and then this will be the 
last question, I suppose. I was told that you had some comment 
on this business of language.
    Mr. Sonnenberg. We have been looking at this language 
problem for a number of years. It is becoming in my opinion----
    The Chairman. Pull your microphone a little bit closer to 
you. Thank you.
    Mr. Sonnenberg [continuing]. More critical than ever, 
because what has happened is that you have the Defense 
Department with the Defense Foreign Language Program. They 
spend millions and millions of dollars. You have got these 
other agencies spending millions and millions of dollars.
    And what has happened is they will state that they have 
turned out people at a level, let's say--they use a number, one 
to five. And I will ask questions like, ``What level are they 
at?'' And I will find the majority will be at level two. Well, 
level two is basic--somewhat higher than basic.
    And my concern is not only that the programs--for example, 
as my chairman mentioned Flex Com, which is the CIA program, 
these are important. But what was more important is the ability 
for these agencies to work together and use each other's 
personnel, because what I do not see here is--I see lots of 
duplication, lots of money being spent, and the quality of 
those types of language people is not what it should be.
    Another aspect has to do with the promotion of these people 
and where they fit into the slots of these various agencies. 
Some of them will look upon it as a dead-end career path.
    So someone has to look into the question of: What do these 
various agencies do with these people so that they stay within 
the agency that they are at, or be able to cross over to other 
agencies?
    So I would just emphasize what my Chairman had said here, 
and that is: The situation is very bad, and unless there is 
some better coordination--and it is not just funding. The 
funding is there. But unless there is better coordination, I do 
not see an improvement.
    And without that improvement we will be listening in the 
dark, because as the Chairman pointed out, in this era of 
modern technology, CD-ROM's, computers, encryption, the need is 
going to be for more qualified people, not mediocre.
    The Chairman. Good. Well, thank you, gentlemen. And we will 
have the next panel. And I appreciate your patience this 
morning.
    Mr. Sonnenberg. Thank you, Mr. Chairman.
    The Chairman. Panel two, the Honorable Michael A. Sheehan, 
Coordinator for Counterterrorism, Department of State; Mr. Dale 
L. Watson, Acting Director of Counterterrorism, FBI; and James 
S. Reynolds, Chief of the Terrorism and Violent Crime Section, 
Criminal Division of the Department of Justice. In that order, 
left to right, please.
    Mr. Watson, I understand I made an error. I used an 
``acting'' in your title. You are a Director. You are not 
acting Director.
    Mr. Watson. I am the Assistant Director in charge of 
Counterterrorism, yes, sir. That is fine.
    The Chairman. Mr. Sheehan, we will go from my view, left to 
right. And we will hear from the gentlemen, and then we have 
three members here who are going to ask you some questions. You 
may proceed.
    Mr. Sheehan. Thank you, Mr. Chairman.
    The Chairman. If you have prepared statements, they will 
all be printed in the record.

     STATEMENT OF HON. MICHAEL A. SHEEHAN, COORDINATOR FOR 
     COUNTERTERRORISM, DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Sheehan. Thank you, Mr. Chairman, Senators and 
distinguished members of the Commission and the staff. Thank 
you for the opportunity to present the Department of State's 
response to the Commission report on terrorism.
    I have a long set of remarks, Mr. Chairman, as you said I 
will provide those for the record.
    I would just like to make a few brief introductory remarks 
this afternoon.
    The Commission's review of our counterterrorism situation 
at this time was a very serious report about a serious issue 
and done by an outstanding and diverse group of professionals.
    I would like especially to commend Ambassador Jerry Bremer, 
one of my predecessors in this job, for a very outstanding job. 
He is one of the predecessors I stay in touch with of many of 
the ones who worked in this job before me.
    Our counterterrorism policy has been one of continuity over 
the last 20 or 30 years. And although we are constantly 
changing and adapting to the new threats, this policy has, in 
my view, worked fairly well over that time period.
    I think it is worth noting the success of our policy. I am 
proud of the work of this administration, and particularly my 
boss, Secretary Albright, and her commitment on 
counterterrorism.
    And she has built upon the policies that have been designed 
and put into place over the last 20 years from both ends of 
Pennsylvania Avenue and from a strong bipartisan approach over 
the last several administrations.
    Mr. Chairman, I think it is worth noting that last year in 
counterterrorism we had a fairly good year from the United 
States' perspective. We lost five people from acts of 
international terrorism last year; three in Columbia, and two 
in Rwanda.
    We were fortunate, though. We could have had more, had 
that--a plot in Jordan been successful or if the Algerian 
suspect Rassom was successful in bringing explosives in the 
United States.
    So thank God and with some luck and a lot of hard work, we 
had one of the better years in about 7 or 8 years in the United 
States.
    Also this year, I would like to note and, again, every 
night I go to bed worrying about a phone call about American 
bodies being brought back to Andrews Air Force Base, but as of 
yet, this year, we have zero casualties from international 
terrorism. Although, I feel personally about the British 
general who died in Greece last week as they are one of our 
closest partners in counterterrorism, the British.
    We have had a pretty good year. We have had some success. 
We have had some success in the Middle East, Mr. Chairman, and 
I would also like to note that last year for the first time in 
many, many years, Egypt had zero deaths from international 
terrorism.
    Jordan also had a very good year. King Abdullah stood up to 
the plate and delivered on some serious counterterrorism 
issues. The Palestinian Authority working cooperatively.
    We have made great progress in the Middle East, which used 
to be the main swamp of terrorists for Americans.
    Last year, the Middle East was the only region in the world 
that had a decline in the number of international terrorist 
incidents.
    The reason we have had success has not been an accident, 
Mr. Chairman. It has been through the policies that were put in 
place over the last 20 years.
    And I think we need to continue those and we need to adapt 
to the new threats. I applaud the work of the Commission in 
identifying some of those new threats, the new types of non-
state sponsored threats that are emerging, also the threat of 
weapons of mass destruction that could greatly skewer the good 
statistics we have had over the last year in one catastrophic 
event.
    So I am not suggesting that we lower our guard at all. We 
have to redouble our efforts, continue what has worked in the 
past to deny sanctuary to terrorists, to deny the amount of 
state sponsorship of terrorists and adapt to the new non-state 
sponsored terrorists that are increasingly a threat that we 
see.
    Congress, I would like to say, Mr. Chairman, has provided 
me, as the Coordinator for Counterterrorism in the State 
Department, the key instruments I use to fight terrorism, and 
they include the designation of foreign terrorist 
organizations, the designation of state sponsorship of 
terrorism, sanctions, legislation and our annual report.
    All of these instruments that have been agreed on by the 
Congress and the administration, in my view, are extremely 
important. The Commission made several recommendations 
regarding state sponsorships, flexibility in that.
    Actually, many of those came through some discussions I had 
with Ambassador Bremer over the designation of foreign 
terrorist organizations and other means that we can fine-tune 
those instruments to better strengthen our response to 
international terrorism.
    I think the Commission has some good ideas. I have talked 
to many of the members of your staff, who have great expertise 
in this area about these issues, and I think over the next 
months and--within the government, we are going to study these 
proposals, talk to members of the committee and the staff and 
think about ways that we can fine-tune some of these 
instruments that were designed over the last 20 years and adapt 
them to the new threats.
    But I must say, we must continue to stay the course on the 
political and diplomatic fronts. The report makes a lot of good 
recommendations on the intelligence and law enforcement fronts, 
which are very important.
    But in my view, the key to success in counterterrorism over 
the longer view is political will. In fact, we know where most 
terrorists are. We know where they are. They are in 
Afghanistan. They are in Iran. They are in other pockets around 
the world.
    Political will to drying the swamp, to deny sanctuary to 
the leadership of terrorist organizations is the key to the 
success of our policy in the long-term, and that is why I look 
forward to working with your committees in the future to fine-
tune our policies, to adjust ourselves to emerging threats and 
continue on the rather positive course that we have had over 
the last years in defeating the scourge of terrorism that 
threatens our country.
    Mr. Chairman, I would also--cannot miss the opportunity to 
mention resources. And I am glad Senator Biden mentioned we, in 
fact, have had a cut from the administration's request in some 
of the Appropriation committees.
    Again, I thank you and Senator Biden for the support you 
have given our efforts. We look forward to working with you and 
members of your staff as we wind through the appropriations 
process this year. We have some very important initiatives in 
counterterrorism that are on the table right now, that some 
seem to be not going too well in the appropriations process.
    We will need your help in those and other areas. And thank 
you for your time this afternoon, Senator, and Mr. Chairman. I 
look forward to answering your questions.
    [The prepared statement of Mr. Sheehan follows:]

          Prepared Statement of Ambassador Michael A. Sheehan

    Mr. Chairman: Thank you for the opportunity to appear before your 
committee to discuss the National Commission on Terrorism's report, 
``Countering the Changing Threat of International Terrorism.'' This is 
an important report and addresses very serious issues. We welcome the 
report, produced by a very distinguished Commission, as a thoughtful 
contribution to our ongoing mission, which is to seek more effective 
means of countering international terrorism and protecting our citizens 
and interests around the world. I believe our exchange of views with 
you today will also contribute to this mission.
    Let me say at the outset that I completely support the core 
objective of the Commission Report: to improve the tools we have to 
combat terrorism, and to ensure that we use these tools as effectively 
as possible. As Coordinator for Counterterrorism, I have felt acutely 
responsible for strengthening our capabilities by making our tools more 
dynamic and effective. In this effort, I find myself in strong sympathy 
with the thrust of many of the Commission's recommendations. I would 
also like to take this chance to thank the Commission for the 
professional nature of their review, and specifically Ambassador 
Bremer, with whom I was in close contact as the Commission developed 
their conclusions.
    Indeed, we are moving forward already in some of the areas 
discussed in the Commission report. Let me address some of the key 
issues and recommendations that relate directly to the work we are 
doing at State.
    Foreign Terrorist Organizations: The Commission observes that it is 
necessary to sustain credibility and dynamism in the Foreign Terrorist 
Organization (FTO) process, and I am committed to doing just that--not 
only with regard to FTOs, but with all of our counterterrorism policy 
tools. Congress has given us a very effective tool in the Secretary's 
authority to designate FTOs. Designations under the 1996 law 
criminalize financial support to a FTO, require U.S. financial 
institutions to block funds of FTOs and their agents, and render 
representatives and certain members of the FTO ineligible for visas and 
admission to the United States. State leads this work in consultation 
with the Departments of Justice and Treasury and with the intelligence 
community. In 1997, we designated 30 organizations as FTOs, allowing us 
to deter terrorist fundraising more effectively. As important, the FTO 
list has proved invaluable as a diplomatic tool to stigmatize and 
punish terrorist groups and their supporters around the world.
    In 1999, we re-designated 27 FTOs (designations expire after two 
years unless renewed), dropped three groups, and added Usama Bin 
Laden's al-Qaida organization. Dropping three FTOs (the Democratic 
Front for the Liberation of Palestine, the Khmer Rouge, and the Manuel 
Rodriguez Patriotic Front of Chile) from the list sent an important 
signal that if you are out of the terrorism business by the standards 
of U.S. law, you will be dropped from the list.
    Because of the significance of FTO designations and because they 
can be challenged in court, the designation process is painstaking and 
we are very careful about assembling the evidence that goes into making 
the case. A single designation consumes hundreds of hours of work 
carried out by my staff as well as by lawyers and analysts from 
Justice, Treasury, and the intelligence community. Because of the 
quality of this effort, we have won all court challenges (for example 
from the MEK and LTTE) to our designations, thereby further bolstering 
the credibility of the FTO process.
    But sustaining credibility and dynamism in the FTO process is an 
ongoing challenge, constrained mainly by limited personnel resources. 
We constantly review and assess various potential groups for addition 
to the list of FTOs--this can be done at anytime, not just every two 
years. I have directed my staff to review some 10 to 12 new groups 
before the year is out. We have already added a new officer for one 
year to work on this and would like to bolster our capabilities by 
adding another full-time lawyer. But undoubtedly there are some groups 
that will not be reviewed as soon as I would like. I am not satisfied 
with the pace of the FTO review process, and will continue to keep 
pushing my staff and the interagency team that processes these 
designations.
    State Sponsors/``Terrorism List'': I made a special effort in my 
introduction to this year's ``Patterns of Global Terrorism'' report to 
highlight the importance of injecting dynamism into another of our 
policy tools: the process of designating state sponsors. The 
Commission's fundamental observations on sharpening diplomatic tools 
such as the ``Terrorism List'' are on the mark, and this is part of my 
strategy. We need to take into account all relevant considerations in 
connection with moving states onto or off of the list, and we also need 
to explore whether it would be appropriate in any cases to identify 
states as ``not fully cooperating'' rather than as state sponsors of 
terrorism if doing so was warranted by the facts and would advance U.S. 
counterterrorism objectives.
    On March 30, the Secretary decided to keep the seven state sponsors 
on the list, including, of course, Iran and Syria. But we pointedly 
noted in Patterns that designation of states is not permanent. A 
primary goal of our counterterrorism policy is to get states out of the 
terrorism business and move them off that list. We do this by engaging 
them on what they need to do to end support for terrorism and pressing 
them to take those steps. Our talks with North Korea and Sudan are a 
case in point. We are, at the same time, committed to maintaining 
sanctions on Iran and Syria--and all other state sponsors--until they 
have moved out of the terrorism business.
    The Commission's report offers recommendations that could be useful 
in making our work more effective. I have been considering what 
intermediate steps could be taken to give state sponsors a clearer look 
at how they might ``graduate'' off the list. It may be possible that in 
appropriate cases state sponsors could step off the state sponsor list 
and be left only on the ``not fully cooperating'' list, with an eye 
towards stepping off of that list when they fully cooperate with U.S. 
antiterrorism efforts. There are many technical legal issues of how the 
laws on state sponsorship and ``not fully cooperating'' are structured, 
but I agree that we should be able to use these tools more effectively, 
including reviewing whether Afghanistan should be designated a state 
sponsor.
    Pakistan and Greece: The Commission suggests that the 
Administration consider Greece and Pakistan as candidates for the ``not 
cooperating fully'' designation, under the 1996 law. Let me first take 
up the case of Pakistan, which has not been designated under this law. 
However, it continues to be under serious and constant review--as it 
must be for our process to be truly dynamic and effective.
    As the Commission's report notes, and as we have noted in Patterns, 
Pakistan's record on terrorism remains mixed. I have no illusions about 
what is negative in the record, and I emphasized this in Patterns when 
describing the shift in the locus of terrorism to South Asia. Despite 
significant and material cooperation in some areas--particularly 
arrests and extraditions--Pakistan also has tolerated terrorists living 
and moving freely within its territory. But the areas of cooperation 
are real, and we are still in the game to make more progress. Pakistan 
is also a victim of terrorism and understands that this threat 
undermines its own security. It is in our interest that they move in 
the right direction, and we want to use the right tools to help them to 
keep the pressure on terrorists.
    We are looking hard at current developments and continue to be 
intensively engaged with Pakistan on improving cooperation, most 
recently with the President's and Under Secretary Pickering's travel to 
Pakistan to reinforce tough messages on terrorism and other key 
concerns. We have a lot more to do, but we see that our engagement is 
beginning to yield progress. If that changes, we of course would 
respond using the tool most appropriate to the situation. But at the 
moment we do not believe that designating Pakistan as ``not cooperating 
fully'' is appropriate.
    On Greece, Secretary Albright has made it clear that we are not 
considering sanctions against the Greek Government. The situation of 
Greece is difficult, and we have offered our perspective in Patterns in 
sharp detail. The Commission's report concludes that Greece--a friend 
and NATO ally--must do better in the fight against terrorism. Our 
embassy in Athens is working closely and cooperatively with the Greek 
Government to bring to justice the killers of five U.S. Mission 
employees since 1975.
    I visited Athens last summer for extended discussions on terrorism 
with a number of Greek officials. Since that time, they have taken 
several initiatives, including reorganizing their counterterrorism unit 
with more money and resources, and initiating a public dialogue on the 
problem of terrorism. We have also signed a mutual legal assistance 
treaty, which the Greeks have already ratified. We hope our Senate will 
approve this treaty later this year. Additionally, we have agreed on 
the text of a police cooperation memorandum. The latter document will 
facilitate increased cooperation between our FBI investigators in 
Athens and Greek law enforcement officers.
    The murder of British Military Attache Stephen Saunders in Athens 
on June 8 is one more sad entry on a long list of unsolved acts of 
terrorism. This tragic event demonstrates that much work remains to be 
done if Greece is going to achieve success against the deadly ``17 
November'' group and other terrorists. We are determined to continue 
our close cooperation with Greek law enforcement authorities on this 
issue. As Secretary Albright said earlier this week, we want to work 
with the Greek Government and be assured by the Greek Government that 
they are doing what they should be doing.
    European officials and private interests have also become victims 
of 17 November. We are encouraging them to work with us and the Greek 
Government in combating this terrorist group. I note that in the past 
year or so, the German ambassador's residence was rocketed, and the 
Dutch ambassador's residence was bombed. In addition, French and 
British banks were bombed and of course, last week Brigadier Saunders 
was murdered. These events are a grim illustration that the Europeans 
are, like us, targets and victims of terrorism in Greece, as are Greek 
citizens themselves.
    In addition, a safe and secure Olympics in Greece is a goal we and 
the Greek Government share. Prior Olympic hosts have spent up to six 
years planning for the security implications of hosting the games, and 
they needed every minute of it. We must consider the ramifications of 
unchecked terrorism for Greek plans to host the next Olympics.
    The ``not cooperating fully'' designation/VWP Program: In addition 
to the above recommendations, the Commission makes the general 
recommendation to use the ``not cooperating fully'' designation more 
effectively. Whether countries should be designated as ``not 
cooperating fully'' with U.S. antiterrorism efforts is a judgment 
involving a review of a country's overall level of cooperation in our 
efforts to fight terrorism, taking into account our counterterrorism 
policy objectives with that particular country. I do not disagree that 
there may be ways to improve these processes and apply them more 
effectively, including by considering the use in appropriate cases of 
the ``not cooperating fully'' category as a ``half-way house'' for 
states that have reduced support for terrorism enough to justify some 
change in their status as state sponsors, or for states that may be 
moving in the wrong direction. In this respect, I note that the 
statutes relating to state sponsorship and full cooperation with the 
United States obviously raise differing issues and the appropriateness 
of putting countries in one regime or the other depend entirely on the 
facts.
    The Commission has also addressed a key issue regarding the ``not 
cooperating fully'' designation: whether the additional sanctions that 
are imposed by this designation--banning arms sales--make sense or 
would be effective.
    In fact, this raises the larger, most important question: whether 
the tools we have, in the context of ongoing engagement, are adequate 
or appropriate for the task of improving our position in the global 
effort against terrorism. One could argue that we currently have 
limited options at our disposal when we seek to pressure nations to 
address terrorist threats within and across their borders.
    The National Commission's report recognizes this, as illustrated by 
its recommendation to ban countries ``not cooperating fully'' with the 
U.S. from participation in the Visa Waiver Pilot Program. At the moment 
it is not clear to us that the Visa Waiver Pilot Program is an 
appropriate vehicle for pursuing our counterterrorism objectives; it 
may not be a sufficiently flexible or well-targeted tool.
    The Commission's idea is useful in that it provokes discussion on 
how Congress and the Administration could work together in developing 
more flexible, calibrated counterterrorist policy tools--tools that 
give us more options than we have now. All nations are not alike, and 
thus the mix of diplomatic tools used need not be alike. There are a 
number of other sanctions that could be useful in exerting pressure on 
various nations to counter terrorist threats more effectively. A 
preferred approach is to authorize the President to choose from a menu 
of sanctions, such as denial of Export-Import bank assistance or U.S. 
Government procurement opportunities.
    Whether or not these types of sanctions would be effective in 
countering terrorism is unclear. But the point is that this is a 
discussion we should be having, and the Commission's report is a good 
start. In the meantime, though, we will continue to move forward on 
many fronts.
    Disruption of Financing: State concurs with the Commission's 
assessment that one of the most important ways to combat terrorism is 
to disrupt the financing of terrorist groups and activities. We have 
already made this a priority and are working hard through various means 
to disrupt the financing of terrorism. I have already outlined for you 
how we actively employ the legal tool of designating Foreign Terrorist 
Organizations.
    Another step the Administration has taken to disrupt the financing 
of terrorists is to levy sanctions through executive action. In 1995 
the President issued Executive Order 12947, which blocked not just 
financial but also material assets of twelve Middle Eastern terrorist 
organizations, as well as senior officials of these groups. These 
sanctions are administered by the Treasury Department. In addition, 
just last year the President issued Executive Order 13129, imposing 
sanctions on the Afghan Taliban. This action deepened the international 
isolation of the Taliban and limited its ability to support terrorist 
groups and activities.
    We are also disrupting the financing of terrorism through bilateral 
and multilateral diplomacy. I held numerous bilateral consultations 
last year, especially in the Gulf states, to address the threat posed 
by Usama Bin Laden and other terrorists. In addition, State 
participated in interagency team visits to the Middle East for the 
purposes of discussing money laundering and other financial issues. We 
will continue to encourage countries to examine their own laws and 
counterterrorist tools to ensure that they are doing all they can. We 
have also urged nations to be more aware of the possibility that 
terrorists are using NGOs as ways to conceal their fundraising and 
other activities.
    With regard to multilateral fora, last year the U.S. worked with 
the G-8 and U.N. member states to achieve consensus in the General 
Assembly on the International Convention for the Suppression of the 
Financing of Terrorism. This landmark convention provides for extensive 
international cooperation on disrupting the financing of terrorists. 
The U.S. was one of the first countries to sign the convention, and we 
are currently working through the G-8, under Japan's leadership, to 
obtain more signatures. The Administration anticipates submitting the 
Convention for advice and consent to ratification in the near future.
    We will continue to move forward on these fronts. As part of our 
Anti-Terrorism Assistance (ATA) program, we have developed a training 
program for foreign financial and banking officials. We hope that this 
program will result in stronger oversight and integrity of foreign 
financial systems. Furthermore, we are working with the G-8 on 
developing practical ways to implement the new U.N. convention drawing 
upon relevant experience in countering money laundering.
    Student Monitoring: The Commission recommends that the 
Administration monitor the status of foreign students in the U.S. Let 
me first stress that our educational facilities are some of the finest 
in the world, and it is mutually beneficial for the U.S. and foreign 
students when they come to study here.
    The Commission suggests using the Coordinated Interagency 
Partnership Regulating International Students (CIPRIS) as a model for a 
more effective monitoring system. CIPRIS is a program under the 
jurisdiction of the Immigration and Naturalization Service. State has 
supported the INS as they have developed this program, and we will 
continue to provide assistance as requested by the INS. We look forward 
to exploring this idea further with Congress and the inter-agency 
community.
    Cyber crime convention: The Commission recommends that the 
Administration help create an international convention on cyber crime. 
The U.S. is already engaged with other nations on this subject. The 
Council of Europe has been the forum in which discussions and drafting 
of language have taken place, and the U.S. is playing an integral role. 
The aim of these discussions is to formulate a convention that will 
harmonize national legislation on cyber crime, facilitate 
investigations, and allow effective cooperation among the authorities 
of different states. A draft text is being developed, and it is our 
hope that an international convention with language acceptable to the 
U.S. can be open for signature by next year.
    I should note, though, that as the Commission's report suggests, 
this issue is larger than terrorism and should be addressed in a 
broader context. After all, terrorism is just one type of international 
criminal activity that can be perpetrated using the Internet. 
Presidential Decision Directive 63 addressed various aspects of 
protecting our national information infrastructure. State will continue 
to support the efforts of both the inter-agency community, especially 
the Department of Justice, and the international community in fighting 
the proliferation of cyber crime.
    Resources: Let me close by saying a few words about resources, and 
more specifically the need for full funding of all of our 
counterterrorist programs. For example, the Antiterrorism Assistance 
(ATA) program, which helps friendly governments acquire 
counterterrorist skills, is a pillar of our counterterrorism efforts. 
Obtaining full funding, however, is always a struggle. The 
Administration requested $38 million for the ATA program in FY 2001. 
However, the Senate Appropriations Committee's markup of the Foreign 
Operations bill recommends only $30 million. That's a cut of 22 
percent. It is even $3 million below the amount Congress appropriated 
in FY 2000, which also was a ``tight'' year. We cannot counter the 
terrorist threat alone--it depends on cooperation with other nations, 
and ATA is a vital tool that gives us access and improves these 
countries' capacity.
    Also troubling is the difficulty in securing funding for a Center 
for Antiterrorism and Security Training (CAST). The Administration has 
requested funding for such a center in order to consolidate ATA and 
other security training at a location near Washington, where foreign 
officials could work more effectively with U.S. Government officials 
and security specialists. As most training recipients are foreign 
officials taking part in the ATA program, we requested funding in the 
ATA part of Foreign Operations. But the Senate's Foreign Operations 
bill does not include the funding. Moreover, the accompanying report 
says that because the money goes for bricks and mortar, it should be 
funded in the Commerce, Justice and State (CJS) bill. Not surprisingly, 
the House CJS Appropriations Subcommittee did not include any funding 
for CAST in its markup last week. We need your support to make sure 
funding is added back when the Foreign Operations bill reaches the 
Senate floor for action.
    I have spoken to many Members and staffers about CAST and have 
found broad support for the center. I understand the difficulties and 
concerns involved, but the bottom line is that CAST should be funded. 
It is critical to future counterterrorism cooperation with other 
countries.
    International cooperation, antiterrorism training, action to 
counter terrorist fundraising, designation of Foreign Terrorist 
Organizations--these and other counterterrorism initiatives are not 
handouts or wasteful government programs. On the contrary, we believe 
they are crucial to the safety and security of our country's citizens 
and assets.
    Mr. Chairman, as we have seen in the past, whenever there is a 
major terrorist incident, everyone demands that we ``do something.'' 
But when the images and fear fade away, it becomes frustratingly 
difficult in the next year to get the funding for programs that protect 
our citizens in tangible ways.
    The National Commission has made a valuable contribution to the 
discourse on counterterrorism. But any reevaluation or restructuring of 
our policies and practices will have to be sustained by sufficient 
resources. The bottom line is that, to fight terrorism effectively, the 
State Department needs the resources to do so. It is my hope that 
Congress will keep this in mind when considering appropriations 
legislation in the coming weeks and months.
    Mr. Chairman, thank you again for the opportunity to appear before 
your committee today. I look forward to answering any questions members 
of the committee may have.

    The Chairman. Thank you, sir.
    Mr. Director.
    Mr. Watson. Assistant Director, Mr. Chairman. There is only 
one Director in the FBI. I will get in trouble if you refer to 
me as that too many times today.
    The Chairman. What did you tell me?
    Staff. Assistant----
    Mr. Watson. Thank you. I----
    The Chairman. He made a big deal, because I called you 
Acting Director.
    Mr. Watson. I am the Assistant Director in charge of 
Counterterrorism.
    The Chairman. OK.
    Mr. Watson. We have one Director and that is the Director 
of--so I think everyone knows that. So----
    The Chairman. OK.

       STATEMENT OF DALE L. WATSON, ASSISTANT DIRECTOR, 
COUNTERTERRORISM, FEDERAL BUREAU OF INVESTIGATION, WASHINGTON, 
                               DC

    Mr. Watson. I am glad to be here. I have a written 
statement. I know you want to get to questions, so why do I not 
just thumbnail what I was going to say real briefly----
    The Chairman. All right. That is good.
    Mr. Watson [continuing]. And it is in the written record.
    We take the report very seriously. We met with the 
Commission. The Director met with them while they were 
formulating their information.
    I met with them and our Office of General Counsel met with 
them, as well as we had FBI people assigned to the Commission. 
So this was a cooperative effort on the part of the FBI and the 
Commission.
    As of Tuesday of this week, the Director of the FBI met 
with Chairman Bremer, went over some of the topics and 
recommendations in the report. So that is where we are at.
    Just real briefly, the FBI's counterterrorism program is 
basically two-pronged. It is proactive and reactive.
    Taking the reactive side first, I think you understand 
reactiveness and the fact that we put overwhelming resources 
onto a situation after it occurs. The East Africa bombing is a 
good example; Oklahoma City, World Trade Center, et cetera. 
That is on the reactive side, after something happens.
    Proactive is a little more difficult, but we take that also 
very seriously. The proactive part is to penetrate, disrupt and 
defeat terrorist organizations and individuals, loosely 
affiliated individuals, not only in this country, but in the 
overseas arena, working closely with the State Department and 
with our partners at the Central Intelligence Agency.
    In continuation of that, real quickly, this fits into the 
5-year strategy the FBI has for counterterrorism along with the 
Department of Justice's 5-year plan for counterterrorism, as to 
try to move forward in that in the information sharing of the 
intelligence community, our intelligence partners, as well as 
our overseas foreign partners, friendly foreign services, not 
only the intelligence side, but the security side of those 
departments as well.
    In 1996, as you well know, we had the Counterterrorism 
Center formed up at the FBI. We incorporated 20 Federal 
partners.
    My closest working partner today is the Central 
Intelligence Agency. And we work very, very closely together 
not to try to do what the CIA does, but to try to share law 
enforcement information and incorporate that in with 
intelligence information coming from the Agency. And it seems 
to work.
    We have a great working relationship with Ambassador 
Sheehan. So I will not belabor that point. To go forward here, 
what has also helped us tremendously inside the United States 
is the formation of our Joint Terrorism Task Forces that were 
started.
    Just a quick example, we had a police officer from New York 
City, who had expertise in VIN, vehicle identification numbers, 
who actually traveled to the East African bombing site and 
assisted us there. But he is an integral part of our Joint 
Terrorism Task Forces.
    To date, we have 27. We are trying to fund more of those. 
And all those are groups of investigators, state, local and 
Federal law enforcement officers within the FBI field office 
that work jointly on joint counterterrorism, terrorism 
initiatives.
    It is well documented. What has been a tremendous help to 
us is the expansion of our Legat program. We are up to 35. You 
are fully engaged with that. You understand that.
    Again, it is not the role of the FBI to try to do what the 
State Department is doing overseas or what the CIA is trying to 
accomplish, or our Department of Defense. It is--those 
individuals are there in a forward positioning in order to 
obtain evidence, collect evidence legally that can be used in 
the United States, obtain witness statements and share that 
information on a law enforcement basis.
    A good example, where we had two Legat's respond to East 
Africa. We had our Legat out of Cairo and our Legat out of 
South Africa that responded quickly up there, not to do 
anything other than try to protect the crime scene, engage with 
local law enforcement in order for us to come in and collect 
the evidence in a manner that would be acceptable in the United 
States.
    Real quickly, the information, Mr. Chairman, you have heard 
about from the Commission, we are moving in that direction as a 
result of an internal reorganization within the FBI as of 
November 1999. We created the Investigative Services Division, 
where we hope to incorporate information, not only intelligence 
information, law enforcement information, but be able to 
analyze that within FBI headquarters.
    In addition to that, we stood up the Counterterrorism 
Division, which I have, which will, in fact, move that process 
forward.
    I think at this point the only other two areas I will 
mention is weapons of mass destruction. In 1996, we had 
reported approximately 30 general basic chases in that arena. 
Those numbers have now gone up to over 300 for 1999. Most of 
those are anthrax related letters and threats, but we continue 
to work on that.
    The Commission noted about our National Infrastructure 
Protection Center [NIPC], the computer terrorism on the 
Internet, et cetera. We have that program. That is within the 
FBI's Counterterrorism Division.
    We work extremely hard on that. It would be a benefit to 
engage our overseas partners, through State Department lead, in 
order to try to ensure some continuity in the laws of what is 
legal or illegal in overseas context as opposed to what we have 
here to use in the United States.
    That also has a dual mission, not only to try to 
investigate who determines or who actually crashed eBay or 
crashed in or denied services at a large Internet service 
provider here in the United States.
    But it also has the dual tract to protect the 
infrastructure through the identification, warning, and 
notification of a potential threat. So if the electrical 
current in the Northeast could possibly be attacked and turned 
over, we need to be out in front of that in a proactive manner 
to make sure we understand those key assets.
    At this point I would--I think I will stop at this and move 
forward. I know you want to get into the questioning, Mr. 
Chairman.
    [The prepared statement of Mr. Watson follows:]

                  Prepared Statement of Dale L. Watson

    Thank you, Senator Helms, and members of the committee for the 
opportunity to discuss the report, Countering the Changing Threat of 
International Terrorism, released on June 5 by the National Commission 
on Terrorism. We have received the report and we welcome it as an 
important contribution to the ongoing effort to develop the most 
appropriate response to the evolving threat of international terrorism.
    The FBI was encouraged by the creation of the Commission in the 
wake of the tragic U.S. Embassy bombings in East Africa, and has 
supported its work during the past six months.
    FBI Director Freeh and executives in the Counterterrorism Division, 
as well as personnel in our Office of General Counsel, are currently 
reviewing the report's recommendations. We are heartened that the tone 
of the Commission's report is generally consistent with the FBI's own 
counterterrorism strategy.

                  THE FBI'S COUNTERTERRORISM STRATEGY

    The FBI has developed an aggressive response to terrorism, one that 
is based on proactive efforts to prevent acts of terror, to disrupt the 
organizations, groups, cells, and loose affiliations that perpetuate 
terrorism, and to bring overwhelming resources to bear to investigate 
incidents that do occur. The FBI's strategy also encompasses a broad 
and aggressive effort to counter the illicit activities in which 
international terrorists engage to support their operational and 
ideological objectives. as noted by the Commission's report, these 
activities often include illicit fund-raising and other criminal 
activities in the United States.
    As part of the FBI's five-year strategy, developed in 1998, top FBI 
executives identified protecting our national security as the most 
fundamental responsibility of the FBI. To further this goal, the FBI 
works closely with our partners in the U.S. intelligence and law 
enforcement communities, as well as with foreign intelligence and 
security services to counter the terrorist threat. We have worked 
diligently during the past decade to ensure this cooperation takes very 
tangible forms.
    In 1996 we established the FBI Counterterrorism Center, where 
personnel from U.S. intelligence agencies work side-by-side with FBI 
special agents and analysts to coordinate information and share 
intelligence. Today, detailees from 20 U.S. Government agencies work on 
a daily basis in the center.
    Similar integration is one of the primary strengths of the Joint 
Terrorism Task Force (JTTF) concept, which, since its inception in the 
1980s, has become an integral component our counterterrorism efforts in 
the United States. In recent years, we have greatly increased the 
number of these FBI-led, multi-agency task forces; there are currently 
27 JTTFs throughout the country. These JTTFs combine the resources of 
U.S. Government agencies with the capabilities of state and local law 
enforcement to investigate the full range of activities perpetrated by 
terrorists.
    Internationally, we have sought to expand the number of overseas 
offices--or legats--that often serve as our first line of defense 
against international terrorists. The FBI currently has 35 legats 
around the world. The value of this ``forward deployment'' of FBI 
investigative resources was clearly demonstrated in the aftermath of 
the U.S. Embassy bombings in Nairobi, Kenya, and Dar es Salaam, 
Tanzania. FBI special agents from the Pretoria, South Africa, and 
Cairo, Egypt, legats, respectively, were able to quickly deploy to 
Nairobi and Dar es Salaam, where they established cooperative 
relationships with police authorities and assisted in establishing 
logistical support for the FBI evidence response teams and other 
investigative personnel that subsequently arrived at both locations. 
The ability to bring investigative resources to bear as quickly as 
possible is a key component to resolving complex cases. The 
establishment of legats enhances the FBI's abilities to accomplish this 
on a global scale. These overseas offices also help us to prevent and 
deter acts of terrorism before they occur.
    The FBI recognizes that it must continue to adapt to effectively 
confront the changing nature of terrorism. In November 1999, Director 
Freeh reorganized the FBI's organizational structure to better address 
this evolving threat. Two new divisions--the Counterterrorism Division 
and the Investigative Services Division--have been created to focus 
enhanced resources on the terrorism threat. Reflecting some of the 
concerns outlined in the Commission's report, one of the basic 
objectives of the FBI's reorganization is to integrate criminal and 
counterterrorism analysis within one organizational entity (the 
Investigative Services Division). This integration enables the FBI to 
analyze the broad range of activities in which terrorists engage--
including illicit fund-raising and counterfeiting, as well as 
operational planning.

                               CONCLUSION

    The FBI agrees with the depiction of the international terrorist 
threat currently confronting the United States outlined in the 
Commission's report. We commend the Commission for its thorough and 
balanced review of this threat and for the serious nature of the 
recommendations it has proposed. And we look forward to working with 
the Congress as it studies the most appropriate methods to further 
enhance the U.S. Government's response to the threat of international 
terrorism.

    The Chairman. Very well. Thank you, sir.
    Mr. Reynolds.

 STATEMENT OF JAMES S. REYNOLDS, CHIEF, TERRORISM AND VIOLENT 
   CRIME SECTION, CRIMINAL DIVISION, DEPARTMENT OF JUSTICE, 
                         WASHINGTON, DC

    Mr. Reynolds. Thank you, Mr. Chairman and Senator Sarbanes. 
In view of the hour, I will be briefest yet.
    We welcome, as my colleagues do, the work of the terrorism 
commission. We met with them. We worked cooperatively with them 
and we will work constructively with the report that they have 
submitted.
    The Department of Justice has long recognized that the 
combating of terrorism is a dynamic process, that you have to 
refocus your strategies periodically to meet the changing 
threat.
    We have endeavored to do that in a number of ways. Let me 
cite just one to you. In December 1998, the Attorney General 
submitted to Congress a 5-year counterterrorism plan. That plan 
was developed in a year-long effort with 24 Federal agencies 
and was informed by input from state and local agencies.
    This is a strategic document. It sets the baseline for the 
range of programs that constitute the counterterrorism 
enforcement effort.
    It is intended to be and is, in fact, updated on a yearly 
basis. The first yearly update was submitted to Congress in 
March of this year.
    These ongoing strategic efforts within the administration 
and within the Department will undoubtedly be informed and 
assisted by the report of the National Commission on Terrorism.
    We are certainly indebted to the Commissioners for their 
work. The Department is still in the process of reviewing the 
report, so we do not have final positions on all of the 
recommendations at this point.
    I have included in the prepared statement I have submitted 
reactions to a number of the recommendations and, with the 
committee's agreement, I will simply submit that for the record 
and then respond orally to any questions you may have.
    Thank you.
    [The prepared statement of Mr. Reynolds follows:]

                Prepared Statement of James S. Reynolds

    Mr. Chairman and Members of the Committee:
    I am Jim Reynolds, Chief of the Terrorism and Violent Crime Section 
of the Criminal Division of the Department of Justice. Thank you for 
the opportunity to appear before you to provide the Department's views 
on the report of the National Commission on Terrorism, and to discuss 
the Administration's counter-terrorism program.
    The Department of Justice recognizes that combating terrorism is a 
dynamic process that requires periodic re-evaluation and refocus. We 
actively engage in that process in a variety of ways. For example, as 
mandated by the Conference Committee Report accompanying the 1998 
Appropriations Act for the Departments of Commerce, Justice and State, 
the Judiciary and Related Agencies, the Attorney General submitted to 
Congress on December 30, 1998, the Administration's Five-Year 
Interagency Counter-terrorism and Technology Crime Plan. It is a 
strategic document which establishes a baseline of broad-based efforts 
in our nation's fight against terrorism. The Five Year Plan provides 
for review and adjustment each year, in coordination with all pertinent 
agencies, of the many programs which make up our counter-terrorism 
program. The first annual update of the Five Year Plan was submitted to 
Congress on March 29, 2000.
    Our ongoing efforts to evaluate and adjust the United States' 
counter-terrorism policies and programs will no doubt be aided by our 
examination of the suggestions made by the Terrorism Commission in its 
report, and we appreciate the Commission's conscientious efforts in 
examining some of the issues central to the counter-terrorism program. 
We are continuing to evaluate the Commission's recommendations, which 
touch on a number of important aspects of our work.
    As reflected in the Commission's Report, the United States' 
counter-terrorism program draws on all pertinent United States 
government resources and disciplines, including from the intelligence, 
diplomacy, military, and law enforcement communities. These resources 
and disciplines must be refocused periodically to meet the evolving 
terrorist threat.
    In this regard, we agree with the observation of the Commission 
that there has been a change in the nature of many international 
terrorist groups. They often now rely on loose affiliations of like-
minded individuals or groups. Similarly, international terrorists no 
longer limit their attacks to Americans outside our borders, but also 
pose the threat of mounting attacks on United States soil. These 
changes pose particular challenges for law enforcement, as its role has 
become increasingly crucial in confronting and disrupting these newly-
emerged groups.
    In an effort to more effectively exercise this critical law 
enforcement role in the fight against terrorism, we have undertaken to 
improve the tools available to us. To this end, the Department has 
worked with Congress to develop an effective arsenal of specialized 
criminal statutes to address terrorism, including statutes tailored to 
address the special concerns raised by the threat of chemical, 
biological and nuclear terrorism. Although some augmentation and fine 
tuning of the statutory arsenal may be appropriate, we now have 
relatively complete coverage.
    In an effort to fulfill its mandate to evaluate the laws, policies, 
and practices for preventing and punishing terrorism directed at 
Americans, the Commission has crystalized its findings into a number of 
recommendations. We appreciate the opportunity to comment briefly on 
some of these recommendations which specifically address the 
responsibilities of the Department of Justice. As noted above, however, 
we are continuing to study the Commission's report and to refine our 
reactions.
    Criminal Prosecutions in Open Court: The Commission recommends that 
the Attorney General direct the Department of Justice to pursue 
vigorously the criminal prosecution of terrorists and to do so in open 
court whenever possible. This is, in fact, the policy which has been 
and continues to be pursued by the Department. Indeed, it is a 
cornerstone of the United States counter-terrorism strategy that 
terrorists should be prosecuted openly and aggressively, and that the 
passage of time should not be allowed to diminish the commitment to 
that undertaking. In recent years, successful criminal prosecutions 
have been pursued in a number of international terrorism cases, 
including the following:

  <bullet> against those responsible for the bombing of the World Trade 
        Center;

  <bullet> against Omar Ali Rezaq, for the hijacking of an Egypt Air 
        flight in which Rezaq executed two passengers, including one 
        American, and 56 other innocent persons died before authorities 
        regained control of the aircraft;

  <bullet> against Tsutomu Shirosaki, for a rocket attack against the 
        United States Embassy in Jakarta, Indonesia;

  <bullet> against those responsible for a plot to bomb 11 United 
        States commercial airliners flying Asian-Pacific routes; and

  <bullet> against those responsible for a plot to bomb tunnels and 
        bridges and other critical locations in New York City.

    A number of significant terrorism cases are currently pending trial 
or at trial, including:

  <bullet> the prosecution in the District of Columbia against Mohammed 
        Rashid for the 1982 bombing of a Pan Am flight from Tokyo to 
        Honolulu, which resulted in the death of one passenger and 
        injury to several others;

  <bullet> the prosecution in New York against those responsible for 
        the bombings of the United States Embassies in Nairobi, Kenya, 
        and Dar es Salaam, Tanzania;

  <bullet> the prosecutions in Seattle and New York emanating from the 
        discovery of bomb-making materials being smuggled into the 
        United States at the Millennium; and

  <bullet> the prosecution in the Netherlands of persons charged with 
        the bombing of Pan Am Flight 103.

    Although the Pan Am 103 prosecution is a Scottish prosecution, it 
is a product of the joint investigative efforts of Scottish and United 
States authorities, and we continue to be fully responsive to any 
requests by Scottish authorities for assistance. It should not be 
suggested that our undertaking in this matter involves simply the 
prosecution of two individuals. Rather, it is part of an ongoing effort 
to address all aspects of this crime, achieve justice, and deter others 
who might contemplate undertaking terrorist acts.
    Foreign Intelligence and Domestic Guidelines: The Commission 
recommends that the Attorney General and the Director of the Federal 
Bureau of Investigation develop guidance to clarify the application of 
the existing foreign intelligence guidelines and domestic guidelines. 
As the Commission noted, specific guidance on implementation of the 
domestic guidelines was provided to FBI agents in the field in 1995. 
That guidance, which is still operative, is intended to ensure that 
agents fully understand and appropriately apply the guidelines. 
Additionally, FBI agents periodically receive training concerning the 
proper application of these guidelines.
    Cyberterrorism and Cybercrime: In the area of cyberterrorism and 
cybercrime, the Commission recommends that the Department of State take 
the lead, in concert with other agencies, in developing an 
international convention aimed at harmonizing national laws, sharing 
information, providing early warning, and establishing accepted 
procedures for conducting international investigations of cybercrime. 
The Department agrees with the suggestion that international 
cooperation is critical. Indeed, the Department, the FBI, and the 
National Infrastructure Protection Center began some time ago to talk 
with other countries about harmonizing national laws, sharing 
information, providing early warning, and establishing procedures for 
international investigations of cybercrime.
    Additionally, the Department, the FBI, and the NIPC have been 
important participants in numerous international efforts, working in 
conjunction with the Department of State and other agencies when 
appropriate. For example, beginning in 1992, the Department helped to 
draft the Council of Europe's (COE) groundbreaking recommendations on 
how states could improve procedures to address problems of information 
technology--for example, how to trace electronic communications rapidly 
while still respecting privacy. Subsequently, the Department has 
participated intensively in the COE's drafting of a cybercrime treaty.
    Similarly, the Department has chaired and been active in the High-
Tech Crime Subgroup developed by the G-8 countries. The work of this 
subgroup has included efforts to harmonize laws, limit procedural 
impediments to investigations, and streamline international cooperation 
in cyber investigations (where data is so perishable). The Department 
is also active in comparable efforts in many other fora--for example, 
in the Organization of American States, in Asia through the United 
Nations Asia Far East Institute, in the European Union, and through 
constant contacts with officials of many individual countries. Because 
of the expertise that the Department has developed through its long 
experience in the international arena, it is important that we remain a 
leading player in the crucial efforts to achieve international 
cooperation in the area of cyberterrorism and cybercrime.
    Foreign Terrorist Organizations: The Commission also recommends 
that the list of foreign terrorist organizations designated by the 
Secretary of State, in consultation with the Attorney General and the 
Secretary of the Treasury, be updated frequently. The statute provides 
that an organization can be designated a foreign terrorist organization 
at any time if the statutory requirements are met. It is our 
understanding that the Department of State is reviewing 10 to 12 
additional groups for possible designation before the end of the year. 
We are committed to working with our partners at State and Treasury to 
ensure that this list is current and comprehensive.
    Designation of organizations as foreign terrorist organizations is 
an aspect of our overall effort to address financial support of 
terrorists. Designation as a foreign terrorist organization serves, 
among other things, to criminalize most financial contributions to such 
organizations. The Commission further recommends that our efforts to 
attack terrorist fund raising not be limited solely to application of 
the foreign terrorist organization statute, but that all available 
statutes--including fraud, money laundering and tax statutes--be used 
to attack terrorist fund raising. The Department is, in fact, pursuing 
such a policy.
    However, within the Administration's counter-terrorism community we 
are continuing to evaluate appropriate steps that can be taken to 
upgrade the effort to address terrorist fund raising.
    Legislation Regarding Biological Pathogens: The Commission 
recommends that legislation be enacted to strengthen the controls on 
biological pathogens in an effort to prevent their use by terrorists. 
The Department wholeheartedly agrees, and we will continue to work 
toward this end. In our continuing efforts to improve the tools 
available to our counter-terrorism program, biological pathogens 
legislation was included in the Department's omnibus anti-crime 
legislation that was developed last year. That legislative proposal 
addresses many of the concerns voiced by the Commission.
    Again, let me thank you for the opportunity to appear before the 
Committee to share some of the Department's thoughts on the Report of 
the National Commission on Terrorism. We appreciate the efforts of the 
Terrorism Commission and their contribution to the continuing dialogue 
on how to improve our counter-terrorism efforts. I am available to 
respond to any questions you may have.

    The Chairman. These gentlemen have got to go, and I 
apologize for having kept you here all morning.
    But, look, I want to ask you--all three of you--I agree 
with the Commission's recommendation that the President should 
make clear to Syria that it will remain on the list of 
terrorist states until it shuts down its terrorist training 
camps and chokes off supplies to terrorist groups.
    Now, do you think the death of Asad is going to make any 
difference? Is his son going to be any better than he was? That 
ball is in the air. Anybody who wants to answer that----
    Mr. Sheehan. I will take a crack at that, Mr. Chairman.
    I think it remains to be seen whether that will change. We 
are hopeful obviously, but the only thing that matters to us is 
how--what he does and--and how--we will have to see, but Syria 
remains on the list of state sponsorship.
    There is no movement at this time to take them off. In my 
annual report, I mentioned one of the largest threats to the 
United States is the arch of terrorism from Tehran through 
Damascus into Lebanon, where these terrorist groups through 
that arch threaten the Middle East peace process.
    Syria is an important part of that arch of terrorism. They 
need to shut down the terrorist groups that are operating 
within their borders and that is what they will be required to 
do in the years ahead, and I can tell you, Mr. Chairman, that 
Secretary Albright always keeps us on the top of her list in 
discussions with the Syrians as part of the peace process or 
any other discussions she has with them.
    The Chairman. Do you have any comment?
    Mr. Watson. No. I agree with Ambassador Sheehan, Mr. 
Chairman.
    The Chairman. Is it too early to make a contact with him 
about this either by you or somebody else in the 
administration?
    Mr. Sheehan. I think in the first--I have not talked to 
Secretary Albright about it specifically yet. I think in her 
initial meeting with him, it was just expressing condolences.
    But I can assure you, Mr. Chairman, that on the top of her 
list of any contacts with the Syrian Government will be their 
support for terrorism.
    The Chairman. Very well.
    Now, let me ask you, Mr. Watson, has the FBI drawn any 
preliminary conclusions about who may have been responsible for 
the Khobar Towers bombing?
    Mr. Watson. I----
    The Chairman. If you do not want to answer in public----
    Mr. Watson. Mr. Chairman, that is a very ongoing sensitive 
matter that the Director and I are deeply involved with. I 
would be more than happy to try to in--not in an open forum, 
but to give you some of that information in a----
    The Chairman. I certainly understand that. Now, let me ask 
you this.
    Mr. Watson. Yes, sir.
    The Chairman. I understand that the FBI has summarized its 
conclusions, and it is detailed in a cable designated FBI 
21204. Are you aware of this cable?
    Mr. Watson. Was that the cable that went out last spring, 
in 1999? Is that what you are talking about? That is 
unfortunate that that got out. And I would--I am really 
uncomfortable talking about that case in open session. I will 
be glad to----
    The Chairman. All right. Just one question.
    Mr. Watson. Yes, sir.
    The Chairman. Can I get a copy of it?
    Mr. Watson. Let me get back with you on that one.
    The Chairman. All right.
    Mr. Watson. OK, sir?
    The Chairman. OK.
    Paul.
    Senator Sarbanes. Mr. Watson----
    Mr. Watson. Yes, sir.
    Senator Sarbanes [continuing]. Is the FBI yet in a position 
to comment on the Commission's proposal that the Department of 
Defense take over, in effect, command and control, if we have a 
significant terrorist attack in the country.
    Mr. Watson. Yes, sir. My comments on that personally, and I 
think it reflects the views of the Director, is that on the 
consequence side, as you well know, that FEMA is in charge. On 
the crisis side, the FBI is in charge.
    What the Commission is talking about--and I think 
Ambassador Bremer said that this morning--is if something 
happens on a large scale, if half of Dallas, Texas, is blown 
up, for whatever reason, in a chemical, biological, mainly 
nuclear type deal, the local authorities will be, in fact, 
stretched so far that if you are talking about mobile 
hospitals, if you are talking about isolating people, if you 
are talking about enforcing a certain quarantine area, there 
is--I think, at that point the military would have to be 
involved.
    There are procedures--as we went through with the top-off 
exercise a couple of weekends ago, there are procedures, and 
maybe Mr. Reynolds would want to comment on that, that are 
established where you ask the military to come in and waive--
have the President waive posse comitatus.
    Should the military do that, if you talk to the military 
folks and I encourage you to do that, I think, in reality I 
think they realize they will have to do it, because they are 
the only ones capable.
    But at the same time, they understand the mission role of 
the military and unless Mr. Reynolds wants to add anything, 
that is where we are at.
    But on regular crisis-type situations with us and FEMA 
lashed up on the crisis consequence side, we work very closely 
with the military. And there is no need for the military to 
quite honestly take that responsibility over.
    Senator Sarbanes. Mr. Reynolds.
    Mr. Reynolds. Well, I would simply say that there is 
legislation in place as part of Nunn-Luger and as part of the 
Nuclear Terrorism Statute, which would allow us--under extreme 
situations--to use the military.
    The military is not in charge of the law enforcement 
situation. They function under the leadership of the FBI, but 
statutes do exist for use of the military. There are separate 
statutes that allow use of the military for technical 
assistance. And then there are the separate statutes that allow 
use of the military for consequence management.
    So there is already in place a statutory regime for a use 
of the military in an orderly pattern. And I am not aware, like 
Mr. Watson, at this point, of a basis to change the formula 
that exists.
    Senator Sarbanes. Now, I was not altogether clear whether 
the Commission was fully cognizant of those statutes and the 
role that has already been developed or programmed for the 
military under circumstances that would seem to warrant them 
playing a role, and whether this is then going beyond that, or 
whether they, in effect, are duplicating that.
    And I know you cannot answer that. We obviously should have 
put that to the Commission while they were here.
    Mr. Reynolds, I had another question to you. There is a 
section in the report where the Commission seems to contradict 
itself. They say, ``The Department of Justice applies the 
statute governing electronic surveillance and physical searches 
of international terrorists in a cumbersome and overly cautious 
manner.''
    I am sure you are familiar with that section of the report, 
and then they sketch out what they think some of the problems 
are in terms of going to the FISA for an order and how you work 
it up.
    But then they conclude this section by saying, ``during the 
period leading up to the millennium, the FISA application 
process was streamlined. Without lowering the FISA standards, 
applications are submitted to the FISA court by DOJ promptly 
and with enough information to establish probable cause,'' 
which, in effect seemed to say, well, at least through that 
period of time, this process was being done the way the 
Commission was seeking to have it done.
    Has there been a basic change in the process, or was that 
something extraordinary?
    Mr. Reynolds. Senator, let me explain the way in which the 
intelligence electronic surveillance works in the Department, 
which will be by way of saying that I think Dale Watson or 
perhaps someone else is the better person to answer the 
question.
    The work that I do involves the case development of 
criminal cases and the prosecution of criminal cases against 
terrorists. In turn, the use of electronic surveillance in the 
intelligence area is based on a representation to the FISA 
court that that electronic surveillance is undertaken for 
national security purposes, as opposed per se to criminal 
prosecution purposes.
    And as a prudential step within the Department, criminal 
prosecution, the function that I have, is one that is separated 
from the decision as to whether or not to seek FISA electronic 
surveillance. The objective is to make sure that FISA 
surveillance is not even perceived to have been misused for the 
purpose of criminal prosecution.
    Dale Watson, in his role as Assistant Director, is involved 
with the submission to our Office of Intelligence Policy and 
Review, of FISA applications and additionally, anticipating the 
possibility that this kind of question might arise, I have 
brought with me somebody from our Office of Intelligence Policy 
and Review who could respond if you wished.
    Mr. Watson. Senator, to answer your question, the 
intelligence side through the FISA, which you referred to, was 
actively involved on the intelligence case paralleling the 
criminal case during the millennium threat of the Seattle 
incident.
    They are--the focus was so extreme, moving toward the 
rollover of January 1, that there were matters that were taken 
within hours and able to obtain the proper court-authorized 
electronic surveillance.
    Is that a sea-change from what we normally do on a daily 
basis? We deal with them on a daily basis. That was in the 
matter of a crisis type. The process seemed to work faster, 
because the Director of the FBI was present along with the 
Attorney General.
    I think there has been progress made in that arena. I think 
they need some more help. It involves staff work.
    I think we do not always agree about probable cause, but 
that is a normal process. I think the head of OIPR, Fran Fragos 
Townsend has done a good job, as we move that forward in the 
dialog that we have.
    So I hope that answers your question.
    Senator Sarbanes. Well, what it suggests--I mean, by the 
Commission's own statement that there was a period of time 
there when the system seemed to be working sort of the way they 
thought it was desirable for it to work.
    You are telling me that that was, in part, because it was 
being handled on a crisis basis, but conceivably a lot of that 
step-up in processing could continue on a regular basis if you 
are provided the resources with which to do it. Is that what 
you are saying?
    Mr. Watson. Yes. And it is mainly a resource issue with 
them and we do not--I mean, we engage in a dialog if it is a 
routine matter, that probably takes a little longer, you know.
    I mean, there is information they need from us and back and 
forth. It is a give and take----
    Senator Sarbanes. All right. Thank you.
    Mr. Watson [continuing]. But if something happens, it is 
rushed through.
    The Chairman. Thank you. I ask your attention to these 
charts. They have refurnished this hearing room, so that we 
have cameras that I cannot see. And I hope they are focused on 
the two charts.\3\
---------------------------------------------------------------------------
    \3\ The charts referred to by the Chairman begin on page 51.
---------------------------------------------------------------------------
    Now, these charts show case after case of unsolved 
terrorist attacks, now, involving the Greek Government, 
suggesting that there is a toleration of terrorism.
    Now, in your opinion, aside from those countries which are 
state sponsors of terrorism, is there any government having a 
worse track record than Greece in fighting terrorism?
    And let me add that the State Department has proposed 
Greece for the pilot Visa Waiver Program. A visa waiver program 
would not give intelligence and law enforcement officers a 
chance to check the identity of people who want to enter the 
United States.
    In light of what is on these charts here and given how easy 
it is apparently for terrorists and criminals to obtain phony 
passports, is it prudent to eliminate the visa requirement? So 
I want you to look at the charts and then respond to that 
question.
    Mr. Sheehan.
    Mr. Sheehan. Mr. Chairman, first of all, in terms of our 
annual report, we stated that Greece was the weakest link in 
Europe in our counterterrorism efforts. And I stand by that 
statement.
    I have been to talk to officials in Greece, with our 
Ambassador there, Under Secretary Pickering has been there. We 
have had some very blunt conversations with members of that 
government and what we expect them to do. The bottom line is 
that they need to exert--they need to arrest, try and jail 
terrorists.
    We have also given them a list of specific steps that we 
think they can take that would help move that process forward. 
They have begun to take some steps in that direction.
    I think it is extraordinarily important in light of the 
recent killing of the British general in Athens that they 
redouble their efforts and make progress on that case, as well 
as many of the other outstanding cases that are pending.
    In terms of the Visa Waiver Program, Mr. Chairman, prior to 
me coming onto this assignment, from what I understand there is 
a strict criteria of determining whether countries are eligible 
for the Visa Waiver Program.
    In the case of Greece, they do not meet that criteria yet. 
And last time I talked to Ambassador Burns, he did not expect 
that they would meet that in the near term, in the next months.
    It remains to be seen when and if they will meet that 
criteria. I think we will be very vigilant to ensure that they 
meet the strict criteria required before they are accepted into 
any Visa Waiver Program.
    The Chairman. Very well.
    Mr. Watson.
    Mr. Watson. Yes, sir. We have been working with the Greeks 
on 17 November as--with part of a task force since 1997. We 
have made some progress in that investigation, but it has been 
a slow process.
    Are the Greeks doing all they can, in the view of the FBI, 
to solve the 17N problem? We feel like we have made some 
progress there.
    They do not do things as fast as we would normally want 
things to happen. The arrest of the individual that Senator 
Sarbanes talked about in December, we would have immediately 
followed up on some searches outside the country.
    It took them awhile to get there. They eventually got 
there, requesting DNA and blood samples from the Germans--I 
mean, those types of things.
    We have offered training. We have given them some training 
in aspect of that, but our task force continues. And we are 
going to continue to work on that, on the 17N problem, until we 
make some headway.
    We have been frustrated by it. The government has changed. 
I have been over there. I have talked to Ambassador Burns and 
representatives of the government, as well as the Director of 
the FBI.
    So it is a fine balance here. Should they get the Visa 
Waiver Program? I think there are restrictions there that need 
to be corrected.
    I am not really, you know, into that arena, where I make a 
recommendation or not, but to say that we have not made any 
progress would not be accurate.
    We have not made the kind of progress that probably you and 
Senator Sarbanes would like to see, but we are moving forward 
in that case.
    The Chairman. Mr. Reynolds.
    Mr. Reynolds. As you know, the Department of Justice and 
the FBI attempt to aggressively apply the extra-territorial 
jurisdiction, which Congress has given us.
    There have been a number of crimes in Greece that would be 
subject to prosecution in the United States. To date, efforts 
with Greek authorities have not been sufficient to put us in a 
position to prosecute those cases.
    We are endeavoring to do everything possible to improve our 
efforts with Greece. There is, as I am sure this committee 
knows, a Mutual Legal Assistance Treaty that was signed 
recently with Greece, which is pending ratification.
    There is a draft police cooperation agreement with Greece 
that is in the hopper and that I would anticipate will be 
executed.
    Concerning the Visa Waiver Program, there was a nomination 
by the State Department of Greece. From the law enforcement 
aspect of the Department of Justice, there has been some 
concern.
    There was a visit led by INS to Greece to evaluate the 
situation, and at this point there has not been an agreement to 
include Greece in the Visa Waiver Program. So, at this point, 
it is an open matter that continues to be studied and awaits 
further input.
    The Chairman. Senator.
    Senator Sarbanes. In fact, bringing Greece along to meet 
the criteria necessary for the Visa Waiver Program would 
accomplish some important steps in terms of security, would it 
not?
    I understand one criteria was becoming a full member of the 
Schengen Agreement, full integration into the European Union's 
border security system. I think that has been done, as I 
understand it. The other was a better control over the issuance 
of passports, which is an important question.
    Now, it is done on a decentralized basis with very little 
control and certainly no centralized control. And I gather 
serious consideration is being given to centralizing that 
process, which would heighten, significantly, security with 
respect to passport issuances. Is that correct?
    Mr. Sheehan. Yes. Jim, do you want to comment on that?
    Mr. Reynolds. Yes, I believe you are correct; that the 
first of the two problems that was raised has now been 
resolved.
    And the second issue, Senator, that you have articulated is 
an issue of continuing concern. And there will be an 
examination of the efforts by Greek authorities to correct 
that.
    I do not mean to suggest to you that if that is corrected, 
that it is a foregone conclusion that Greece will be accepted 
into the program. There is a decisionmaking process. But this 
is a matter that is an open matter and is under consideration 
and review.
    The Chairman. Mr. Reynolds, weeks ago, I wrote to the State 
Department requesting information and documents relating to 
Greece's meeting the criteria on the Visa Waiver Program.
    A lot of the mail, directed to the State Department by both 
the House and the Senate, apparently falls in a black hole down 
there in Foggy Bottom.
    I want somebody to answer that request of mine. And I saw 
Madeleine last night at a function, and I started to ask her 
then, but I thought that was not quite appropriate.
    But would you folks make sure that I get that document?
    Mr. Sheehan. I will, Mr. Chairman.\4\
---------------------------------------------------------------------------
    \4\ The information was received by the committee and is retained 
in the committee files.
---------------------------------------------------------------------------
    The Chairman. OK.
    Senator Torricelli. Mr. Chairman, could I ask about a 
different matter, if you or Senator Sarbanes were----
    The Chairman. Certainly. Certainly. And I am through. And I 
do not know whether Paul is, but we----
    Senator Sarbanes. Yes, go on.
    Senator Torricelli. I just needed a moment, if I could, on 
two other countries that are not involved----
    The Chairman. Yes, sir. I am here for you.
    Senator Torricelli. Mr. Secretary, in 1995 Pakistan handed 
over to American authorities someone that was very important in 
my State of New Jersey and to our neighbors in New York, and 
that was Mr. Yosef, who had been involved in the World Trade 
Center bombing.
    In 1997, they turned over Mr. Kansi, who is responsible for 
shooting a CIA officer at the headquarters in Langley. 
Pakistan, in 1998, was cooperative. Indeed, they apprehended 
Mr. Oday who had been involved in the U.S. Embassy bombings in 
East Africa.
    And last year, Mr. Aldeek, who was implicated in the East 
Africa bombings was arrested and turned over to Jordan, with 
the expectation he was to come to the United States.
    Those are several of the largest terrorist incidents 
committed against the United States in the last decade. And 
Pakistan was cooperative and instrumental in apprehending or 
extraditing people involved in each incident.
    You can imagine the surprise, therefore, to find comments 
in the Commission's report--if I could quote it directly, 
``That Pakistan was not fully cooperative''--might have been 
the operational word--``in the fighting of terrorism.''
    It would not surprise me that few nations probably meet 
fully the standards that we would like and may not be 
cooperative in each instance as we would define them.
    But this does not appear to be a good example of providing 
incentive and giving thanks to people who have helped us in 
what are several major incidents involving terrorism against 
the United States.
    Would you respond to this apparent contradiction of the 
record with conclusions in the report?
    Mr. Sheehan. I will answer that, Senator. First of all, you 
did--those that you mentioned are correct, and there are 
actually more that they have sent back to the United States.
    I would make a few comments in that regard. First, I think 
it is actually indicative of the shift of the center of gravity 
of terrorism from Middle East to South Asia, that this is also 
indicative of.
    Most of the problems that I face right now as Coordinator 
for Counterterrorism are increasingly coming out of south and 
central Asia.
    And Pakistan is, in fact, a victim of terrorism as well. 
They have cooperated on specific cases of helping to provide 
extradition to people.
    But let me say this also, Senator, that we have serious 
concerns with policies of the Government of Pakistan regarding 
their support for organizations involved in terrorism. And I 
have clearly outlined that in my annual report.
    I also have problems with their very close relationship 
with the Taliban. I must say that although Iran remains the 
most active state sponsor of terrorism, which we said in our 
annual report, the area of concern I am most worried about in 
terms of the projection of terrorist threats to American shores 
and to American interests around the world comes from 
Afghanistan.
    And Afghanistan is the key. We must drain that swamp of 
terrorists. And our cooperation with Pakistan is important in 
that regard.
    Pakistan is a longstanding friend of the United States. I 
served in the United States military on two occasions with the 
Pakistani Army. It is an army I know well.
    On the other hand, at the same time, some of the policies 
that Pakistan is pursuing, especially in regard to Afghanistan 
are of concern to the U.S. Government. We should have very 
frank conversations with them.
    I think that the chief executive, Musharaf, increasingly 
understands the problem of terrorism emanating from 
Afghanistan. He hears it, not only from the United States, but 
from many of his neighbors.
    He also understands that it threatens his own stability of 
Pakistan itself. So I think our policy in Pakistan needs to be 
very carefully nuanced.
    They do cooperate with us on time. They are threatened by 
it. We want to help them address this threat that threatens 
them and us. And we are pushing them in several areas where 
they--we think they need to improve their policies.
    Senator Torricelli. This goes to the heart of the fact that 
there is a contemporary problem with the use of the term 
``terrorism'' and how it applies to policies.
    The United States legitimately can have concern with 
another government having relationships with nations that do 
not meet acceptable levels of behavior and being involved in 
activities against other states.
    Those are all legitimate concerns of the U.S. Government. 
But the primary level of concern should be actions taken 
against the United States or our people or our direct interest.
    That is the first level of concern. And I am trying to 
differentiate. On that level of concern, in the World Trade 
Center bombing, the bombings of our embassies, the 
assassination of a CIA official, Pakistan has been cooperative.
    I understand we disagree with their policies with 
Afghanistan, actions they have taken against India, groups that 
may be operating from their soils, and I understand you only 
have one report to issue, but my central point here is if we 
were issuing reports on whether they are cooperative in law 
enforcement on major cases involving the United States, I would 
express great gratitude for their cooperation.
    Indeed, I have noticed you have said--and I will quote 
you--``Pakistan is a friendly country. They cooperate with us 
on terrorist issues.''
    On a different level of relations with foreign governments 
and what the implications be, we may not necessarily give them 
the same grade. But it is that differentiation that I wanted to 
make.
    And a second issue--and an issue I know that the chairman 
has addressed before--you have, in your own testimony here 
today, said that Iran is in a unique situation, that it could 
harbor and be responsible for more terrorist acts than any 
other state.
    Mr. Sheehan. I stated that they are the most active state 
sponsor. That is the testimony of the Director of Central 
Intelligence, Mr. Tenant, and one that I agree with.
    Senator Torricelli. It is, in my mind, a contradiction, 
that is it possible to commit illegitimate terrorist acts 
against a terrorist entity itself? I am actually not stating a 
conclusion. I am posing a question.
    The Department has listed the People's Mujahedeen as a 
terrorist group. More than 100 members of the House of 
Representatives, the majority of the U.S. Senate, in previous 
years, have actually asked the State Department to engage in 
dialog with the People's Mujahedeen, saying it was better to 
communicate with them. They have the objective of overthrowing 
the Iranian Government.
    Mr. Sheehan. That is correct.
    Senator Torricelli. They engage in military operations 
against the Iranian Government.
    And, again, I am not stating a conclusion, but I am posing 
a question. Can it be illegitimate, by definition, to engage in 
military acts against an illegitimate government that is the 
principal international sponsor of terrorists, or indeed, do 
people not have a right to engage in military actions--citing 
the preamble, indeed, of our Constitution and our own 
Declaration of Independence, do people not have a right and a 
responsibility to overthrow what is a terrorist government that 
is illegitimately founded?
    And how, in citing these organizations, do you deal with 
this contradiction?
    Mr. Sheehan. Senator, you ask a good question. It gets to 
the heart of an issue that is a very sensitive one for 
counterterrorism policy. And that is drawing a very fine line, 
but a clear line, between acts of war or insurgency, which are 
covered under the Geneva Conventions, and acts of terrorism, 
which we consider criminal.
    One of the central tenants of our counterterrorism policy, 
which I alluded to earlier in remarks, the success that we have 
enjoyed over the last 20 years, the last several 
administrations, is depoliticizing acts of terrorism, 
criminalizing the act and focusing on that act, that 
assassination, that bombing, that killing of citizens and 
stripping away the political agenda of any group, because all 
terrorist groups wrap themselves in legitimate and sometimes 
not-so-legitimate causes.
    In the case of the MEK, we have a very meticulous process 
that we review with all of the agencies in the counterterrorism 
community to review the acts of terrorism that they have been 
involved with, and because of those acts, not because of their 
policies regarding against the Iranian Government, or any other 
type of--even armed acts that they might take against them, but 
because they have been involved in terrorism, they have been 
put on the list of foreign terrorist organizations. And if they 
were to get--to not do terrorism, not being involved in 
terrorism for a period of the last 2 years, they would be 
dropped from that list.
    It is a very careful criteria that we review. But I would 
say, Senator, that it is very important that all organizations, 
whatever their cause, not use terrorism as an instrument to 
pursue that.
    Senator Torricelli. No one is promoting the use of 
terrorist acts. There is the problem of definition and the 
responsibility of a citizen of an illegitimate state that is 
committing terrorist acts against its own people. At what point 
does it becomes legitimate for them to take up arms. Something 
with which we are not unfamiliar in our own national 
experience.
    Is it, by definition, possible for someone to have 
committed an illegitimate act against the National Socialist 
Government of Germany in the 1930's, or would any act against 
that government, by definition, have been legitimate? And the 
question if I were a citizen of Iran today, I believe an 
Iranian citizen has a responsibility to take action against the 
Iranian Government, given the abuse against their own people, 
the role they are playing in the world, the offense of the 
Iranian Government against the world. It is my belief that 
there is a responsibility to take action.
    And I also only just note for the record, too, that if this 
is to be the policy of the U.S. Government, it requires 
consistency. What the people of Mujahedeen are doing now may or 
may not be legitimate. It is a subject of legitimate debate.
    But it is also not any different than they were doing 5 
years ago when their representatives were entertained in the 
White House. They were meeting with U.S. Government officials, 
and the majority of the U.S. Congress was lending support and 
even suggesting funding.
    The same people, same organizations, same acts, leading to 
the legitimate suspicion that perhaps they were redefined, not 
because what they were doing was a terrorist act, but because 
the administration was sending a signal, at their expense, to 
the Iranian Government of an accommodation or a reconciliation.
    In this administration, it is the same type of gift that in 
Mr. Reagan's administration took the form of a birthday cake, 
and may have done so at enormous expense to their lives and 
their operations.
    Much of what I have suggested may not have an answer. I am 
posing questions for you about which I may have mixed feelings 
myself.
    But nevertheless, I presented them because I wanted you to 
think about them.
    Mr. Sheehan. Thank you, Senator. If I could respond 
briefly, my office coordinates the designation of the foreign 
terrorist organizations. And there are a lot of sensitive 
political issues regarding many of the groups that are either 
on or off of that list. But I can assure you that I have never 
felt any pressure from anyone within my building or in the 
interagency community on who should or should not be on that 
list.
    And quite frankly, I have no agenda, other than who is 
involved in terrorism. And I am not susceptible to pressures 
within any one--any part of our Government to that.
    And in the case of the MEK, we thought they met the 
criteria. It was challenged in court. And it was upheld.
    Senator Torricelli. Mr. Chairman, thank you.
    Mr. Watson. Senator, I would say that is a very good issue 
that you raised. It also raises a neutrality act and a 
violation of Federal law as to what is allowed or not allowed 
within the United States to go back to, you know, on a country 
that maybe they do not disagree with or agree with, so a very 
good issue. But it kicks in the neutrality act.
    Senator Torricelli. Thank you.
    The Chairman. It certainly is. Gentlemen, I regret that we 
have kept you here so long, but it has been a remarkable 
session. And I appreciate your coming and putting up with the 
delay and all the rest of it.
    Now, you are probably going to get questions in writing 
from Senators who were not able to be here, and maybe some from 
me. And if you will respond to them as quickly as you can, I 
would appreciate it.
    If there is no further business to come before the 
committee, we stand in recess. Thank you very much.
    [Whereupon at 1:07 p.m., the hearing was adjourned.]
                              ----------                              


      Charts Referred to by Chairman Jesse Helms During Testimony



        ANTI-U.S. TERRORIST ACTS IN GREECE: 1975-2000 (1st qtr.)
------------------------------------------------------------------------
   Date           Target          Method          Claim          Status
------------------------------------------------------------------------
  2/25/00   Wackenhut Security  Arson       Anarchist Faction  Unsolved
             Vehicle                         for the
                                             Overthrow
  2/16/00   Pfizer, Inc.        Incendiary  Anti-Authority     Unsolved
             Offices             (IID)       Erotic Cells
  2/15/00   Wackenhut Security  Arson       Black Star         Unsolved
             Jeep
 12/19/99   Texaco              Explosive   Revolutionary      Unsolved
                                 (IED)       Nuclei
  12/5/99   Nike                Incendiary  Friendship         Unsolved
                                             Society
 11/19/99   Nording Ins.        Molotov     Friendship         Unsolved
                                             Society
 11/18/99   DHL Van             Arson       No Claim           Unsolved
 11/14/99   Ford                IED         No Claim           Unsolved
  11/7/99   Levi Strauss        Bomb        Anti-Capitalist    Unsolved
                                             Action
  11/7/99   Hellenic-American   Shooting     No Claim          Unsolved
             Union
  11/5/99   Nike                IED,        No Claim           Unsolved
                                 defused
  10/4/99   McDonald's          Molotov     Friendship         Unsolved
                                             Society
  5/31/99   McDonald's          Arson       None               Unsolved
   5/9/99   American Express    Shooting    Red Line           Unsolved
   5/5/99   Chase Manhattan     Rocket      17N                Unsolved
  4/26/99   Fulbright Offices   Arson       Rigas Feraios      Unsolved
  4/15/99   GM car dealership   Arson       Enraged            Unsolved
                                             Anarchists
   4/1/99   U.S. Consulate      Firebombin  None               Solved
                                 g
  3/28/99   Citibank            Bomb        None               Unsolved
  3/28/99   Apple Computer      Bomb        None               Unsolved
             Corp. Distributor
  3/22/99   Citibank            Bomb        None               Unsolved
  3/21/99   Citibank            Bomb        None               Unsolved
   1/3/99   New York College    Bomb        None               Unsolved
 11/17/98   Citibank Office     Firebombs   None               Unsolved
   4/7/98   Citibank Office     Rocket      17N                Unsolved
  3/12/98   Chrysler/Jeep       Bomb        17N                Unsolved
             Dealership
  3/12/98   GM/Opel Dealership  Bomb        17N                Unsolved
  2/19/98   Detroit Motors      Bomb        17N                Unsolved
             Dealership
   2/3/98   McDonald's          Bomb        17N                Unsolved
             Restaurant
   2/3/98   McDonald's          Bomb        17N                Unsolved
             Restaurant
  1/26/98   Hewlett Packard     Firebombs   Revolutionary      Unsolved
             Office              (2)         Subversive
                                             Faction--Command
                                             o Unabomber
  1/22/98   Apple Computer      Arson       None               Unsolved
             Corp. Vehicle
  12/8/97   American Express    Bomb        None               Unsolved
             Office
 12/26/96   Citibank Office     Firebombin  Nuclei of          Unsolved
                                 g           Revolutionary
                                             Violence
 12/19/96   Citibank Office     Bomb        None               Unsolved
  5/28/96   IBM Office          Bomb        Nihilist Faction   Unsolved
  2/15/96   U.S. Embassy        Rocket      17N                Unsolved
  8/10/95   American Express    Bomb        Anti-              Unsolved
             Office                          Establishment
                                             Nuclei
   8/8/95   Apple Computer      Arson       Class War Group    Unsolved
             Corp. Van
   8/4/95   Citibank Office     Bomb        Anti-              Unsolved
                                             Establishment
                                             Nuclei
  5/18/94   IBM Office          Rocket      17N                Unsolved
  4/11/94   American Life       Rocket      17N                Unsolved
             Insurance Co.
             (ALICO)
  7/21/91   American Express    Molotov     None               Unsolved
             Office
   4/1/91   Citibank Office     Bomb        ELA/1 May          Unsolved
   4/1/91   Citibank Office     Bomb        ELA/1 May          Unsolved
  3/12/91   USAF Sgt. Stewart   Bomb        17N                Unsolved
             (Murdered)
   2/6/91   Citibank Office     Bomb        17N                Unsolved
   2/4/91   Citibank Office     Bomb        Unknown            Unsolved
  1/28/91   American Express    Rocket      17N                Unsolved
             Office
  1/25/91   Citibank Office     Bomb        17N                Unsolved
  1/25/91   Citibank Office     Bomb        17N                Unsolved
  6/10/90   Proctor Gamble      Rocket      17N                Unsolved
             Office
  5/28/90   Hilton Hotel        Bomb        People's Rage      Unsolved
 I0/23/89   USG Vehicles (3)    Bombs       ELA                Unsolved
 10/22/89   USG Vehicle         Bomb        ELA                Unsolved
  6/28/88   USN Capt. Nordeen   Bomb        17N                Unsolved
             (Murdered)
  3/19/88   Oscar's Pub         Bomb        People's           Unsolved
                                             Revolutionary
                                             Solidarity/
                                             Carlos
  1/21/88   DEA Agt. Carros     Bomb        17N                Unsolved
             (Targeted)
   6/3/87   U.S. Emb. Officer   Shooting    None               Unsolved
             Residence
  9/27/87   U.S. Commissary     Bomb        ELA                Unsolved
  8/10/87   U.S. Military Bus   Bomb        17N                Unsolved
  4/29/87   Union Carbide       Bomb        ELA                Unsolved
  4/24/87   U.S. Military Bus   Bomb        17N                Unsolved
  8/11/88   Citibank Office     Molotov     ELA                Unsolved
  3/26/86   USG Vehicles (2)    Firebombin  Political          Unsolved
                                 g           Initiative Group
  3/22/86   Truman Statue       Bomb        ELA/Kassimis       Unsolved
  3/18/86   Hellenic American   Bomb        ELA                Unsolved
             Union Office
  1/30/86   Shell Oil Co.       Bomb        None               Unsolved
             Offices
  9/13/85   Citibank Offices    Bomb        ELA/Kassimis       Unsolved
  9/13/85   USG Vehicle         Bomb        ELA/Kassimis       Unsolved
   7/1/85   Apollon Palace      Bomb        ELA/Anti-          Unsolved
             Hotel                           Imperalists Anti-
                                             American
                                             Struggle
  5/10/85   Citibank Office     Bomb        None               Unsolved
   2/2/85   Bobby's Bar         Bomb        ELA/Carlos         Unsolved
 11/15/83   USN Capt. Isantes   Shooting    17N                Unsolved
             (Murdered)
 11/15/83   U.S. Embassy        Shooting    17N                Unsolved
             Employee
             Veloutsos
             (Murdered)
  1/15/83   USG Vehicle         Firebombin  None               Unsolved
                                 g
 10/21/82   Hellenic American   Firebombin  Autonomous         Unsolved
             Union Office        g           Resistance
   7/2/82   American Express    Bomb        ELA                Unsolved
             Office
   7/2/82   Chase Manhattan     Bomb        ELA                Unsolved
             Office
  6/20/82   USG Vehicle         Bomb        ELA                Unsolved
   6/2/82   Honeywell Corp.     Bomb        ELA                Unsolved
             Office
   6/2/82   USG Vehicle         Bomb        ELA                Unsolved
  5/21/82   USAF Base           Bomb        ELA                Unsolved
  4/30/82   American Express    Bomb        ELA                Unsolved
             Office
  4/27/82   U.S. Embassy        Arson       ELA                Unsolved
             Vehicle             Attack
  4/26/82   American College    Bomb        People's Struggle  Unsolved
  4/26/82   IBM Office          Bomb        ELA                Unsolved
   4/2/82   U.S. Ambassador's   Bomb        Revolutionary      Unsolved
             Residence                       Popular Struggle
   4/1/82   U.S. Ambassador's   Bomb        ELA                Unsolved
             Residence
  3/22/82   USG Vehicle         Bomb        None               Unsolved
  3/19/82   USG Vehicles (2)    Bombs       ELA                Unsolved
  3/19/82   American School     Arson       None               Unsolved
  3/16/82   Citibank Office     Bomb        Revolutionary      Unsolved
                                             Organization
                                             Aris
  3/16/82   Citibank Office     Bomb        Revolutionary      Unsolved
                                             Organization
                                             Aris
  5/24/81   U.S. NCO Vehicle    Bomb        None               Unsolved
   5/5/81   USG Vehicle         Bomb        ELA                Unsolved
   5/4/81   U.S. Embassy        Bomb        ELA                Unsolved
             Vehicle
  4/16/81   USG Vehicles (6)    Firebombin  Revolutionary      Unsolved
                                 gs          Left
  4/12/81   USG Vehicle         Firebombin  20 October         Unsolved
                                 g
   4/3/81   USG Vehicles (6)    Firebombin  Revolutionary      Unsolved
                                 gs          Left
 11/17/80   U.S. Consulate      Bomb        None               Unsolved
  9/16/80   USG Vehicles (4)    Firebombin  Revolutionary      Unsolved
                                 gs          Left
  9/16/80   USG Vehicles (3)    Firebombin  None               Unsolved
                                 gs
  5/24/79   USG Vehicle         Firebombin  Popular Fighting   Unsolved
                                 g           Front
 11/22/78   American Legion     Bomb        None               Unsolved
             Club
 11/18/78   Coca Cola Truck     Bomb        ELA                Unsolved
 11/18/78   Coca Cola Truck     Bomb        None               Unsolved
   6/7/78   USG Vehicle         Firebombin  None               Unsolved
                                 g
  5/22/78   USG Vehicle         Firebombin  ELA                Unsolved
                                 g
   5/3/78   USG Vehicle         Arson       None               Unsolved
  4/28/78   USG Vehicle         Arson       None               Unsolved
  4/18/78   USG Vehicle         Arson       None               Unsolved
  3/11/78   USG Vehicle         Firebombin  None               Unsolved
                                 g
  2/18/78   USG Vehicle         Arson       None               Unsolved
  1/22/78   USG Vehicle         Firebombin  None               Unsolved
                                 g
  1/21/78   United States       Bomb        ELA                Unsolved
             Information
             Agency (USIA)
             Office
  1/21/78   American Express    Bomb        ELA                Unsolved
             Office
   1/9/78   USG Vehicles (2)    Firebombin  None               Unsolved
                                 gs
 12/27/77   U.S. Embassy        Bomb        National           Unsolved
                                             Socialists
                                             Organization of
                                             the Pan Hellenes
  10/9/77   U.S. NCO Club       Bomb        ELA                Unsolved
  10/8/77   USG Vehicle         Firebombin  None               Unsolved
                                 g
  9/19/77   USG Vehicle         Firebombin  None               Unsolved
                                 g
  9/10/77   USG Vehicle         Firebombin  None               Unsolved
                                 g
  7/30/77   USG Vehicles (5)    Bombs       None               Unsolved
  7/14/77   American Express    Arson       ELA                Unsolved
             Office
  7/14/77   American Express    Arson       ELA                Unsolved
             Office
  7/14/77   USG Vehicle         Molotov     None               Unsolved
  7/14/77   U.S. Commissary     Bomb        ELA                Unsolved
  5/21/77   USG Vehicle         Firebombin  None               Unsolved
                                 g
  5/11/77   USG Vehicle         Firebombin  None               Unsolved
                                 g
  4/23/77   USG Vehicles (4)    Firebombin  None               Unsolved
                                 gs
  4/13/77   USG Vehicles (13)   Firebombin  None               Unsolved
                                 gs
 11/13/76   USG Vehicle         Bomb        None               Unsolved
 11/13/76   U.S. Commissary     Arson       None               Unsolved
 11/13/76   USG Vehicle         Bomb        None               Unsolved
 11/13/76   Coca Cola Truck     Firebombin  None               Unsolved
                                 g
   9/9/76   USG Vehicle         Bomb        None               Unsolved
  4/21/76   American Express    Arson       ELA                Unsolved
             Office
  4/10/76   USG Vehicles (3)    Bombs       None               Unsolved
   4/3/76   American Express    Bomb        None               Unsolved
             Office
  2/27/76   American Express    Arson       ELA                Unsolved
             Office
  2/27/76   Chase Manhattan     Bomb        ELA                Unsolved
             Office
  2/12/76   USG Vehicle         Firebombin  None               Unsolved
                                 g
 12/23/75   CIA COS Richard     Shooting    17N                Unsolved
             Welch (Murdered)
 12/15/75   USAF Officer's      Arson       None               Unsolved
             Vehicle
 11/10/75   U.S. Commissary     Bomb        ELA                Unsolved
 10/19/75   USG Vehicle         Firebombin  None               Unsolved
                                 g
 10/18/75   USG Vehicle         Firebombin  None               Unsolved
                                 g
 
------------------------------------------------------------------------
Last updated 4/12/2000.


                                 ______
                                 


  GREEK TERRORIST/ANARCHIST ATTACKS ON EUROPEAN TARGETS: 1990-2000 (1st
                                  qtr.)
------------------------------------------------------------------------
                                          Method
   Date        Target      Nationality      of         Claim       Case
                                          Attack                  Status
------------------------------------------------------------------------
   4/5/00   Miele         German         Incendia  Anti-War       Unsolv
             Company                      ry        Cells          ed
                                          (IID)
  3/29/00   Embassy       German         Incendia  Ovethrow       Unsolv
             Vehicles                     ry        Anarchist      ed
                                                    Faction
  2/17/00   Military      NATO           Demonstr  KKE            Unsolv
             Facilities                   ators                    ed
  2/16/00   Military      NATO           Demonstr  KKE            Unsolv
             Facilities                   ators                    ed
  1/23/00   Embassy       Italian        Incendia  November 19    Unsolv
             Vehicle                      ry        Anarchist      ed
                                                    Faction
  1/23/00   School Bus    German         Incendia  Street         Unsolv
                                          ry        Revolutionar   ed
                                                    ies
  12/6/99   Official      EU             Incendia  No Claim       Unsolv
             Vehicle                      ry                       ed
 11/17/99   German        German         Vandalis  Demonstrators  Unsolv
             Cultural                     m                        ed
             Center
 11/17/99   Bank of       Cypriot        Vandalis  Demonstrators  Unsolv
             Cyprus                       m                        ed
  11/4/99   Renault       French         Incendia  Anti State     Unsolv
                                          ry        Action         ed
  9/14/99   Official      Albanian       Arson     Popular        Unsolv
             Vehicle                                Revolutionar   ed
                                                    y Front
  9/14/99   Official      Russian        Arson     Popular        Unsolv
             Vehicles                               Revolutionar   ed
             (3)                                    y Front
  7/14/99   Embassy       Cypriot        Arson     No Claim       Unsolv
             Vehicle                                               ed
  7/11/99   Embassy       Albanian       Arson     No Claim       Unsolv
             Vehicle                                               ed
  5/22/99   Nederlande    Dutch          Shooting  Red Line       Unsolv
             Insurance                                             ed
  5/20/99   Embassy       Austrian       Arson     Black Star     Unsolv
             Commercial                                            ed
             Building
  5/16/99   Ambassador's  German         Rocket    17N            Unsolv
             Residence                                             ed
   5/7/99   Ambassador's  Dutch          Bomb      17N            Unsolv
             Residence                                             ed
   5/5/99   British       British        Rocket    17N            Unsolv
             Midland                                               ed
             Bank
   5/5/99   BNP Bank      French         Rocket    17N            Unsolv
                                                                   ed
  4/27/99   Intercontine  British        Bomb      Revolutionary  Unsolv
             ntal Hotel                             Nuclei         ed
  4/24/99   Office        UN             Shooting  Red Line       Unsolv
                                                                   ed
   4/4/99   Embassy       Italian        Vandalis  Demonstrators  Unsolv
             Building                     m                        ed
   4/4/99   Offices       EU             Vandalis  Demonstrators  Unsolv
                                          m                        ed
   4/4/99   Military      NATO           Vandalis  Demonstrators  Unsolv
             Facilities                   m                        ed
   4/4/99   Embassy       French         Molotov   Demonstrators  Unsolv
             Building                                              ed
   4/4/99   Embassy       British        Vandalis  Demonstrators  Unsolv
             Building                     m                        ed
  3/26/99   Ambassador's  British        Vandalis  Demonstrators  Unsolv
             Residence                    m                        ed
   2/8/99   Consulate     Turkish        Bomb      Hawks of       Unsolv
                                                    Thrace         ed
 12/29/98   Barclay's     British        Bomb      Revolutionary  Unsolv
             Bank Bldg.                             Nuclei         ed
 10/24/98   Mercedes Car  German         Vandalis  No Claim       Unsolv
             Dealership                   m                        ed
  9/15/98   British       British        Bomb      No Claim       Unsolv
             Consul In                                             ed
             Thessalonik
             i
  8/27/98   Banque        French         Arson     No Claim       Unsolv
             Nationale                                             ed
             de Paris
  7/27/98   Fiat          Italian        Arson     Arsonists of   Unsolv
             Dealership                             Social         ed
             (12 cars)                              Consensus
   6/9/98   Private       German/Greek   Arson     Cells of       Unsolv
             School Bus                             Proletarian    ed
                                                    Resistance
  5/31/98   Embassy       French         Arson     Arsonists of   Unsolv
             Vehicle                                Conscience     ed
  5/21/98   Barclay's     British        Arson     Autonomous     Unsolv
             Bank                                   Cells of       ed
                                                    Rebel Action
  5/16/98   Diplomatic    Turkish        Arson     Arsonists of   Unsolv
             Vehicle                                Conscience     ed
  5/16/98   European      EU             Arson     Arsonists of   Unsolv
             Union                                  Conscience     ed
             Offices
   5/3/98   Diplomatic    Hungarian      Arson     Arsonists of   Unsolv
             Vehicle                                Conscience     ed
   5/3/98   Diplomatic    Yugoslav       Arson     Arsonists of   Unsolv
             Vehicle                                Conscience     ed
  3/30/98   Institute     French         Arson     No Claim       Unsolv
             Vehicle                                               ed
  3/29/98   Military      Turkish        Arson     Arsonists of   Unsolv
             Attache's                              Conscience     ed
             Vehicle
  3/22/98   Official      Cypriot        Arson     Arsonists of   Unsolv
             Vehicle                                Conscience     ed
 12/16/97   Embassy       French         Arson     No Claim       Unsolv
             Vehicle                                               ed
 11/30/97   Embassy       Italian        Arson     No Claim       Unsolv
             Vehicle                                               ed
 11/16/97   Student       Cypriot        Arson     Anti-Fascist   Unsolv
             Union                                  Action Group   ed
             Building
 11/12/97   Embassy       French         Arson     Children of    Unsolv
             Vehicle                                November       ed
 10/25/97   German        German         Arson     Anti-          Unsolv
             Archaeologi                            Sovereignty    ed
             cal Inst.                              Struggle
 10/19/97   Alitalia      Italian        Bomb      International  Unsolv
                                                    Revolutionar   ed
                                                    y Struggle
  6/15/97   Embassy       Austrian       Molotov   No Claim       Unsolv
             Courtyard                                             ed
  4/15/97   Lancia        Italian        Bomb      Fighting       Unsolv
             Dealership                             Guerrilla      ed
                                                    Formation
   4/4/97   Alitalia      Italian        Bomb      Fighting       Unsolv
             Offices                                Guerrilla      ed
                                                    Formation
 11/15/96   Embassy       Dutch          Bomb      Revolutionary  Unsolv
             Vehicle                                Front          ed
  1/23/96   School Bus    German         Arson     No Claim       Unsolv
                                                                   ed
 11/22/95   Barclay's     British        Bombs     No Claim       Unsolv
             Bank                                                  ed
  7/11/94   Insurance     German         Bomb      ELA            Unsolv
             Company                                               ed
   7/4/94   Deputy Chief  Turkish        Shooting  17N            Unsolv
             of Mission                                            ed
  6/24/94   European      EU             Bomb      ELA            Unsolv
             Union                                                 ed
             Office
   6/7/94   Embassy       Belgian        Bomb      ELA            Unsolv
                                                                   ed
  5/23/94   Miele         German         Molotov   No Claim       Unsolv
             Company                                               ed
  5/13/94   Vehicle       Albanian       Arson     No Claim       Unsolv
                                                                   ed
  4/24/94   UNHCR Office  UN             Bomb      ELA/1 May      Unsolv
                                                                   ed
  4/21/94   Van           German         Bomb      In Solidarity  Unsolv
                                                    with Kurds     ed
  4/20/94   Diplomatic    Swedish        Bomb      Red Devils     Unsolv
             Vehicle                                               ed
  4/17/94   Diplomatic    Dutch          Bomb      ELA/1 May      Unsolv
             Vehicle                                               ed
  4/17/94   Institute     French         Bombs     ELA/1 May      Unsolv
             Vehicles                                              ed
             (3)
  4/12/94   Netherlands   Dutch          Bomb      17N            Unsolv
             Insurance                                             ed
             Co.
  4/11/94   HMS Ark       British        Rockets   17N            Unsolv
             Royal                                                 ed
  3/16/94   European      EU             Bomb      ELA            Unsolv
             Union                                                 ed
             Offices
  3/16/94   Language      French         Bomb      ELA            Unsolv
             Institute                                             ed
   2/3/94   Goethe        German         Bomb      ELA            Unsolv
             Institute                                             ed
  3/17/92   European      EC             Bombs     ELA            Unsolv
             Community                                             ed
             (2 cars)
   1/2/92   Miele         German         Bomb      People's       Unsolv
             Company                                Uprising       ed
             Store
  1/12/92   AEG Company   German         Bomb      People's       Unsolv
                                                    Uprising       ed
  10/7/91   Diplomat      Turkish        Shooting  17N            Unsolv
                                                                   ed
  7/17/91   Lufthansa     German         Bomb      People's       Unsolv
             Office                                 Uprising       ed
  7/16/91   Diplomats     Turkish        Bomb      17N            Unsolv
             (4)                                                   ed
  5/31/91   Lowenbrau     German         Rocket    17N            Unsolv
             Brewery                                               ed
   5/7/91   Siemans       German         Rocket    17N            Unsolv
             Company                                               ed
             Office
   4/3/91   UN Office     UN             Bomb      ELA/1 May      Unsolv
                                                                   ed
   2/7/91   Foreign       French         Bomb      17N            Unsolv
             Service                                               ed
             Vehicle
   2/6/91   Diplomatic    French         Bomb      17N            Unsolv
             Vehicles                                              ed
  1/29/91   British       British        Rocket    17N            Unsolv
             Petroleum                                             ed
             (BP)
             Offices
  1/25/91   Attache's     French         Bomb      17N            Unsolv
             Vehicle                                               ed
  1/25/91   Barclay's     British        Bomb      17N            Unsolv
             Bank Office                                           ed
 12/16/90   European      EEC            Rocket    17N            Unsolv
             Community                                             ed
             Offices
  3/27/90   Diplomatic    Czech          Bomb      Social         Unsolv
             Vehicles                               Resistance     ed
  3/27/90   Diplomatic    Hungarian      Bomb      Social         Unsolv
             Vehicles                               Resistance     ed
  3/27/90   Diplomatic    Soviet         Bomb      Social         Unsolv
             Vehicles                               Resistance     ed
 
------------------------------------------------------------------------
Last update 4/12/2000.



                                 ______
                                 

           [From the Washington Times, Sunday, June 11, 2000]

                           Tackling Terrorism

                           (By Oliver North)

    William the Tourist was hardly down the gangway of Air Force One 
following his 40th ``Excellent Overseas Adventure'' when the National 
Commission on Terrorism handed him his report card on combating 
terrorism. He flunked.
    The bipartisan commission was mandated by Congress in the aftermath 
of the almost simultaneous bombings of the U.S. embassies in Nairobi, 
Kenya, and Dar es Salaam, in October 1998. Widely believed to be the 
handiwork of al-Qaida, Saudi exile Osama bin Laden's group, these 
attacks killed 220 and wounded more than 4,000.
    In six months of unusually hard work for any group convened in 
Washington, the commissions six Republicans and four Democrats, and 
their 11-person staff, conducted more than 135 interviews--including 
meetings with Canadian, French, Israeli, Jordanian, Polish and British 
officials. Their 64 page report is replete with ominous warnings: 
``Terrorists attack American targets more than those of any other 
country.'' ``Terrorist attacks are becoming more lethal.'' And, unlike 
the threat 10 years ago, ``today's terrorists seek to inflict mass 
casualties.'' Unfortunately, the commission also found that when it 
came to carrying out a coherent counter-terrorism strategy, the Clinton 
administration wasn't up to the task: ``Significant aspects of 
implementation are seriously deficient.''
    It's no surprise that responsible people find the incumbent regime 
to be ``seriously deficient.'' What is surprising--and perhaps the 
consequence of publishing a ``consensus report''--is how the commission 
ignores certain terrorist threats and fails to address the glaring 
errors of the Clinton administration's feeble responses to bloody 
terrorist attacks that have killed scores of Americans. Likewise, the 
tenor of some of the commission's 37 recommendations leads one to hope 
that the current White House will leave the implementation to more 
competent successors.
    For examnple, the report details continuing Syrian and Iranian 
complicity in international terrorism--and makes a cogent case that the 
Clinton administration's ill-advised efforts to lift sanctions against 
Damascus and Tehran ought to be abandoned. But the report also includes 
at least four narco-terrorist groups on the list of foreign terrorist 
organizations, yet the commissioners make no recommendation regarding 
sanctions against Cuba, Haiti or Mexico for providing sanctuary and 
money-laundering services to these groups.
    The commission mandate was to review the ``policies and practices 
for preventing and punishing international terrorism, [to] assess their 
effectiveness and recommend changes.'' But the report is mute on the 
wisdom or efficacy of firing dozens of expensive cruise missiles into 
tent camps in Afghanistan and pharmaceutical plants in the Sudan as a 
means of ``punishing'' terrorists.
    Curiously, the report recommends sanctions against Greece and 
Pakistan for ``not cooperating fully'' with U.S. counter-terrorism 
efforts. But if that standard is to be applied, there is a long list of 
other nations that would earn the citation--China, Lebanon and Algeria, 
to name a few.
    Hopefully, Congress will reject as totally unacceptable proposals 
on page 40 of the report that the executive branch ``develop and adapt 
detailed contingency plans that would transfer lead federal agency 
authority to the Department of Defense if necessary during a 
catastrophic terrorist attack or prior to imminent attack.'' Required 
reading: The Constitution and the provisions of posse comitatus, which 
state that the military may not be used for domestic law enforcement.
    Interestingly, some of the most sensible recommendations have 
raised the greatest ire from those who have read the report. The 
commissioners are properly critical of Clinton-imposed restrictions on 
the CIA recruitment of informants and sources who may have unsavory 
backgrounds, and urge a return to pre-1995 criteria. Before President 
Clinton, it was recognized that we are unlikely to learn about 
impending terrorist attacks from those in the ministry.
    And on one of the recommendations, a personal note. The 
commissioners urge the U.S. government to keep closer tabs on the 
activities of foreign students in the United States. This proposal has 
earned scorn from all of the usual suspects despite the observation 
that one of the bombers in the February 1993 attack on the World Trade 
Center that killed six and wounded more than 1,000 Americans entered 
the United States on a student visa--and then disappeared. But that's 
not the only example of ``foreign student terrorism'' on U.S. soil. In 
February 1987, Moammar Gadhafi ordered his thugs to carry out a threat 
made against me in 1986. Thankfully, the FBI intercepted the well-armed 
perpetrators on the way to our home and my family and I were 
sequestered for a time on a military base. The orders from Tripoli were 
delivered to a terrorist cell in Virginia--at the offices of the 
People's Committee for Libyan Students.
    And since we're getting personal, one more thing. Next week, when 
William the Impeached sits down for another Oval Office seance with his 
pal Yasser Arafat, he ought to hand him a copy of the Terrorism 
Commission's report and ask when the Palestinian Authority will hand 
over Abul Abbas, the mastermind of the Achille Lauro hijacking--and the 
murderer of U.S. citizen Leon Klinghoffer.


</pre></body></html>
